<html>
<title> - THE SECURITY, ECONOMIC, AND HUMAN RIGHTS RELATIONS DIMENSIONS OF U.S.-AZERBAIJAN RELATIONS</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                 THE SECURITY, ECONOMIC, AND HUMAN RIGHTS 
                  RELATIONS DIMENSIONS OF U.S.-AZERBAIJAN 
                  RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMISSION ON SECURITY AND

                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            


                   Available via http://www.csce.gov
                   
                                ____________
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-592                      WASHINGTON : 2015                      
           
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  
         
           
           
           
        
           
           COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,	        CHRISTOPHER SMITH, New Jersey,
Chairman                                Co-Chairman
SHELDON WHITEHOUSE, Rhode Island	JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico			ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire		PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut		MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi		ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia		LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas			New York                                                                          
                                        MIKE McINTYRE, North Carolina
                                        STEVE COHEN, Tennessee






THE SECURITY, ECONOMIC, AND HUMAN RIGHTS DIMENSIONS OF U.S.-AZERBAIJAN 
                               RELATIONS

                              ----------                              

                             JUNE 11, 2014
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin L. Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................    00
Hon. Roger Wicker, Comissioner, Commission on Security and 
  Cooperation in Europe..........................................    00
Hon. Christopher Smith, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................    00

                               WITNESSES

Eric Rubin, Deputy Assistant Secretary, U.S. Department of State.    00
Thomas O. Melia, Deputy Assistant Secretary, U.S. Department of 
  State..........................................................    00
Miriam Lanskoy, Director for Russia and Eurasia, National 
  Endowment for Democracy........................................    00
Brenda Shaffer, Visiting Researcher, Center for Eurasian, 
  Russian, and East European Studies, Georgetown University......    00

                               APPENDICES

Prepared Statement of Hon. Benjamin L. Cardin....................    00
Prepared Statement of Hon. Christopher Smith.....................    00
Prepared Statement of Eric Rubin.................................    00
Prepared Statement of Thomas O. Melia............................    00
Prepared Statement of Miriam Lanskoy.............................    00
Prepared Statement of Brenda Shaffer.............................    00


            THE TRAJECTORY OF DEMOCRACY--WHY HUNGARY MATTERS

                              ----------                              


                             JUNE 11, 2014

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 10:11 a.m. to 11:46 a.m. EST in 
Room 432 Russell Senate Office Building, Senate Room 210-212, 
Washington, D.C., Senator Benjamin L. Cardin, Chairman of the 
Commission on Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin L. Cardin, Chairman, 
Commission on Security and Cooperation in Europe, Hon. 
Christopher Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe, and Hon. Roger Wicker, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present: Eric Rubin, Deputy Assistant Secretary, 
U.S. Department of State; Thomas O. Melia, Deputy Assistant 
Secretary, U.S. Department of State; Miriam Lanskoy, Director 
for Russia and Eurasia, National Endowment for Democracy; and 
Brenda Shaffer, Visiting Researcher, Center for Eurasian, 
Russian, and East European Studies, Georgetown University.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Let me welcome you all to the hearing of the 
Helsinki Commission. I thank our witnesses for being here. I 
particularly want to thank Senator Cantwell for allowing us to 
use this committee room, the Small Business Committee that I 
have the opportunity of serving on. This hearing is scheduled, 
primarily because of the venue--of the OSCE Parliamentary 
Assembly annual meeting, which will take place in Azerbaijan 
the end of this month. I intend to be there, along with several 
of my colleagues in the United States Senate and in the House 
of Representatives. I think we'll have a pretty strong 
delegation that will meet in Azerbaijan to consider the 
important business of the Parliamentary Assembly. So in 
preparation for that meeting, this hearing is an opportunity 
for us to update the status of the relationship between the 
United States and Azerbaijan, and Azerbaijan's fulfillment of 
its commitments under the OSCE.
    Let me also point out that yesterday I had an opportunity 
to meet with Azerbaijan's ambassador to the United States. I 
thought we had a very good meeting. He apologizes for not being 
here. He had meetings on the security front with the--with 
representatives of the United States at the same time, so he 
sends his apologies.
    The purpose of this hearing, as advertised, is to look at 
the security, economic and human rights dimension of the U.S.-
Azerbaijan relations. And when we look at each of the baskets--
each of the three baskets--there's robust matters that we can 
discuss today, and I'm pleased that we have our panelists to do 
that.
    On the security front, clearly Azerbaijan has been helpful 
to the United States and our allies in regards to Afghanistan. 
Their troops are in Afghanistan and the Northern Distribution 
Network relies very heavily on Azerbaijan, so they're an 
important strategic partner of the United States. They have 
supported our position in the United Nations Security Council, 
particularly as it relates to Ukraine and the territorial 
integrity of Ukraine. And for that, we have a strategic partner 
that's important to our country.
    Ukraine's territorial integrity is an issue of great 
concern to the frozen conflict in N-K, is a matter that we need 
to focus on, and I know during our visit it will be a matter 
that we will be talking with the Azerbaijani officials, as well 
as other delegations that will be in Azerbaijan. Their support 
on counterterrorism is an important strategic partnership with 
the United States, and one that we certainly want to build 
upon.
    In regards to the economic dimension, Azerbaijan's a very 
important country on oil and gas. We have cooperated with them, 
and they were, I point out, the first signator to the EITI--a 
matter of great interest to the Helsinki Commission, and we 
have been strong proponents of transparency within the 
extractive industries. And I think one of the points that I 
will want to inquire about is how much they're committed to 
transparency within the extractive industries.
    In regards to the third basket, dealing with the human-
rights dimension, there is concern. And I mentioned that with 
the ambassador yesterday. Their presidential elections that 
took place fell short of international standards--a matter that 
I would like to make sure that our record is complete on. It's 
an authoritarian-rule country--that raises certain concerns on 
their commitments to the OSCE principles--the concern of 
freedom of the media, and there are several individuals who 
have been harassed and detained because of their desire to 
report what's happening in Azerbaijan. That falls far short of 
the OSCE commitments and is something that we will be 
mentioning by name during our visit to Azerbaijan. The right of 
association, political opposition, all are matters of grave 
concern as to whether Azerbaijan is meeting their commitments 
under the Helsinki principles.
    So we have a robust area to deal with today. And at this 
point let me turn to our witnesses that we have here today and, 
again, thank them for being here.
    Tom Melia, the deputy assistant secretary, Bureau of 
Democracy, Human Rights and Labor, Department of State, a 
frequent participant in the Helsinki Commission. It's always a 
pleasure to have Secretary Melia with us. And Eric Rubin, the 
deputy assistant secretary, Bureau of Europe and Eurasia 
Affairs, Department of State. So we have the two experts from 
the administration on these issues and we look forward to your 
testimony. As is the custom of our commission, your written 
statements will be made part of our record. You may proceed as 
you wish.
    Secretary Rubin.

  ERIC RUBIN, DEPUTY ASSISTANT SECRETARY, U.S. DEPARTMENT OF 
                             STATE

    Mr. Rubin. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for inviting us to speak with you today about our bilateral 
relationship with Azerbaijan. Our partnership with Azerbaijan 
remains a critically important aspect of our engagement in the 
Caucasus and the wider region. For over 20 years, since 
Azerbaijan's independence, the United States has been working 
with Azerbaijan to promote a secure, prosperous and democratic 
society. And we've been--in that time we've provided 
approximately 1.1 billion (dollars) in assistance to pursue 
these goals.
    My testimony today will focus on the core areas of our 
bilateral relationship. First, I will talk about our security 
cooperation. Second, I will look at our evolving economic 
relationship, including energy diversification and our efforts 
to promote economic reform. Finally, I will briefly examine the 
country's democratic development, a subject that Deputy 
Assistant Secretary Melia will cover in greater detail.
    First, Azerbaijan has been a key partner for the United 
States and NATO from Kabul to Kosovo. Azerbaijan currently has 
94 troops serving in Afghanistan and has committed to remain in 
the country beyond 2014. Azerbaijan is a key node in the 
Northern Distribution Network and air route, sending nonlethal 
goods in and out of Afghanistan. As such, strengthening Caspian 
security, countering terrorism, stemming the proliferation of 
weapons of mass destruction and enhancing maritime domain 
awareness continue to be top priorities for U.S. assistance to 
Azerbaijan.
    Over the past 12 years, we have provided 44.4 million 
(dollars) in foreign military financing and 9.9 million in 
international military education and training and export 
control and border security programs that focus on military 
professionalization, building interoperability and enhancing 
border security. And we are providing approximately $4 million 
in this current fiscal year.
    We provide security assistance to Azerbaijan while 
carefully ensuring it is used to comply with U.S. law. As a co-
chair country of the OSCE Minsk Group, along with France and 
Russia, the United States is doing everything we can to 
facilitate a peaceful settlement to the Nagorno-Karabakh 
conflict. We hope the presidents of Armenia and Azerbaijan will 
agree to meet in the near future to continue the constructive 
dialogue begun at their summit last November. It is also 
important that both governments support Track II efforts to 
build people-to-people contacts between Azerbaijanis and 
Armenians. These kind of confidence-building measures can help 
to prepare citizens of both countries for peace.
    The United States enjoys growing economic cooperation with 
Azerbaijan, particularly in the area of energy. As Europe looks 
more resolutely to diversify its sources of energy away from 
its dependence on Russia as part of its energy-security 
strategy, Azerbaijan is emerging as a crucial supplier for our 
European allies. The Baku-Tbilisi-Ceyhan oil pipeline, which 
began operating in June 2006, was an early success for our 
Southern Corridor diplomacy, and now we are focused on 
developing a gas link between Azerbaijan and Europe. Completing 
the Southern Gas Corridor will bring 10 billion cubic meters of 
Caspian natural gas, perhaps more, to Western Europe, starting 
in 2019.
    While energy remains an important part of our bilateral 
economic relationship, it is not the only focus. Azerbaijan and 
its neighbors could become a premier trade and transportation 
corridor between Europe and Asia, but to do so they must first 
reduce costs associated with high customs and tariffs and 
address delays caused by a lack of regional coordination. Time 
is of the essence, and the United States strongly supports 
reforms that will create sustainable sources of non-oil revenue 
in Azerbaijan and new opportunities for U.S. exports and 
investment, including in areas like aviation, communications 
technology and heavy equipment. The United States also supports 
Azerbaijan's accession into the WTO and the rules-based system 
in which its members participate.
    In this context, it is important to note the role that 
corruption plays in the entire OSCE space, including 
Azerbaijan. Working with the government of Azerbaijan and local 
partners, we are committed to enhancing efforts to address this 
problem.
    Finally, our strongest relationships throughout the world 
are with democracies that respect the full range of human 
rights of their citizens. We have concerns about the 
environment for democratic development and the protection of 
human rights in Azerbaijan, which have been deteriorating. My 
colleague Tom Melia will touch on that in more detail in a 
moment.
    Going forward, our relationship will continue to be based 
on all of these core areas: security cooperation, economic and 
energy cooperation and democratic development. Our mission 
remains to address each of these areas with equal rigor and 
resolve in advancing our national interest, and we are 
committed to working with Congress in a bipartisan manner in 
our efforts to realize each of these goals and the full 
potential of the U.S.-Azerbaijani relationship. Thank you, Mr. 
Chairman.
    Mr. Cardin. Secretary Melia.

THOMAS O. MELIA, DEPUTY ASSISTANT SECRETARY, U.S. DEPARTMENT OF 
                             STATE

    Mr. Melia. Mr. Chairman, thank you for inviting me to speak 
today about democracy and human rights dimension of our 
bilateral relationship with Azerbaijan. I greatly appreciate 
the dedication you have demonstrated over the years to the OSCE 
and especially to the enduring principles enshrined in the 
Helsinki Final Act and the body of commitments that comprise 
the OSCE's human dimension.
    I would start with reference to a key tenet of the OSCE 
canon as set forth in the 1991 Moscow Document and reaffirmed 
most recently in the 2010 Astana Summit Declaration in which 
all of the OSCE participating states agreed, and I'm quoting 
now, categorically and irrevocably that the commitments 
undertaken in the field of the human dimension of the OSCE are 
matters of direct and legitimate concern to all participating 
states and do not belong exclusively to the internal affairs of 
the state concerned. This concept, linking respect for human 
rights within states to prosperity and lasting security among 
states, is reflected in our multilateral and bilateral 
interactions with all OSCE-participating states, including with 
Azerbaijan.
    In Azerbaijan, this constitutes one of three equally 
important core goals about with Deputy Assistant Secretary 
Rubin has just spoken, and U.S. officials regularly meet with a 
variety of Azerbaijanis, ranging from senior government 
officials to civil society activists and opposition political 
party representatives.
    While serving as deputy assistant secretary, I have visited 
Azerbaijan three times, holding valuable meetings with leading 
government officials, including President Aliyev, as well as 
with opposition leaders, civil society and journalists. And 
I've been joined on these missions by senior colleagues from 
the Department of State's Europe and Eurasia bureau, from USAID 
and the Department of Justice. And I would like to visit 
Azerbaijan again soon to continue these conversations with 
people inside and outside of government.
    The United States also provides material assistance to 
support Azerbaijan's democratic development. The largest part 
of this assistance is provided by our colleagues at USAID, and 
we in the State Department work very closely with them, as we 
also collaborate with the legal experts provided by the 
Department of Justice. And this interagency collaboration works 
well.
    Five years ago, at the outset of this administration, it 
was already difficult for advocates of democratic reform, and 
especially opposition political parties, to participate in the 
political life of the country, but it was still possible for 
NGOs and independent activists to operate. Sadly, the 
environment has worsened significantly since then, beginning 
with the 2009 incarceration of young democracy activists Emin 
Milli and Adnan Hajizade.
    The suppression of peaceful dissent increased in 2011 with 
the arrests of young Azerbaijani activists who sought to 
organize peaceful pro-democracy rallies in Baku. Azerbaijan's 
parliament later passed legislation significantly increasing 
fines on participants and organizers of unauthorized protests 
in November of 2012, which resulted in the detention of 
numerous peaceful activists for baseless administrative 
violations.
    Since early 2013, the space for peaceful dissent has 
narrowed more dramatically, and the exercise of fundamental 
freedoms has become still more tenuous. A number of leading 
peaceful democracy advocates, civil society activists and 
journalists have been incarcerated, including the chairman of 
the reform-oriented REAL Movement, Ilgar Mammadov; the 
journalist and Musavat Party deputy chairman, Tofig Yagublu; 
members of democratic youth movements; the blogger Abdul 
Abilov; religious scholar and activist Taleh Bagirzade; Khural 
editor Avaz Zeynalli; and the chairman of the local election 
monitoring partner of the National Democratic Institute, Anar 
Mammadli, chairman of the Election Monitoring and Democracy 
Studies Center, which had provided a critical report on the 
presidential elections to which you referred, Mr. Chairman.
    Two rounds of legislative amendments since March of 2013 
have further restricted NGO funding and activity. Officials 
have pressured Azerbaijani and international NGOs, including 
some of the U.S. government's closest partners there. Such 
actions add up to an increasingly hostile operating environment 
for civil society, especially for those activists and groups 
advocating respect for human rights, fundamental freedoms, and 
government accountability, thereby depriving citizens the open 
channels through which they can legitimately voice their 
concerns. Pressure on independent defense lawyers, moreover, 
has resulted in a decreasing number of lawyers ready to defend 
individuals in politically sensitive cases.
    Restrictions on the ability of Azerbaijani activists to 
travel outside the country are also a problem. For example, 
since 2006, the government has prevented the foreign travel of 
opposition Popular Front party chairman Ali Karimli by refusing 
to renew his passport. One of Azerbaijan's leading human rights 
defenders, Ms. Leyla Yunus, was unable to attend an OSCE 
discussion taking place today in Bern, Switzerland on the 
important role of human rights defenders, because Azerbaijan's 
authorities confiscated her passport.
    This confiscation occurred in the context of the April 19 
arrest of well-known journalist Rauf Mirqedirov--the subsequent 
questioning of Leyla Yunus and her husband about Mirqedirov, 
and their poor treatment by police in custody. All three have 
been strong proponents of people-to-people diplomacy of the 
kind Secretary Rubin referred to, which helps build ties 
between Azerbaijanis and Armenians, and is crucial to the 
eventual peaceful resolution of the Nagorno-Karabakh conflict.
    These are not the kind of actions the United States or the 
broader international community wants to see from a partner, an 
OSCE-participating state, and currently, the chair of the 
Committee of Ministers of the Council of Europe. We recognize 
that Azerbaijan lives in a very difficult neighborhood. The 
United States strongly supports Azerbaijan's long-term 
stability, security and prosperity. The best way to guarantee 
such a future, we believe, is to advance democratic processes 
and institutions, to buttress respect for the rule of law and 
fundamental freedoms. Doing so will foster long-term, internal 
stability, create the most inviting environment for economic 
investment and growth and make Azerbaijan the very best it can 
be by giving every citizen the freedom and space to achieve his 
or her potential.
    We consider this to be in the short-term and long-term 
interests of the Azerbaijani people and the government. And as 
President Obama explained in his May 28th speech at West Point, 
America's support for democracy and human rights goes beyond 
idealism. It is a matter of national security. Democracies are 
our best friends and are far less likely to go to war.
    And yet, he noted, in capitals around the globe, including, 
unfortunately, some of America's partners, there has been a 
crackdown on civil society. The United States believes that 
Azerbaijan will have greater stability and prosperity and will 
more quickly achieve its potential by allowing for a more open 
society. We will continue to urge Azerbaijan to live up to its 
OSCE and other international human rights commitments.
    As President Obama indicated in his recent message marking 
Azerbaijan's National Day, and to return to where I began, we 
encourage Azerbaijan to reclaim the leadership role on human 
rights and fundamental freedom its people and government 
demonstrated 96 years ago. Thank you again, Mr. Chairman, for 
this opportunity to discuss democracy and human rights in 
Azerbaijan.
    Mr. Cardin. Well, thank you both for your testimony. Let me 
start with what is on, I think, the minds of people in 
Azerbaijan more than anything else, and that is the concern 
about territorial integrity. With Russia's actions in Georgia, 
and now, Russia's actions in Ukraine, that is clearly the most 
talked-about issues in that region of the world. Russia is very 
active in Azerbaijan in regards to being physically present. 
They have had many of their leaders in Azerbaijan talking to 
the officials of Azerbaijan. Can you just update us as to how 
you see the events in Ukraine impacting Azerbaijan's foreign 
policy and concerns about Russia's actions?
    Mr. Rubin. Thank you, Mr. Chairman. This has been a subject 
of very intensive discussion and dialogue with the government 
of Azerbaijan, as it has been with every country in the region, 
because the principle that we're defending in defense of 
Ukraine's territorial integrity and sovereignty applies to all 
the countries of the region, and, indeed, to every country 
that's a member of the United Nations and the Organization for 
the Security and Cooperation in Europe.
    With Azerbaijan, as Deputy Assistant Secretary Melia said I 
think exactly right, Azerbaijan lives in a very dangerous 
neighborhood. It's got Russia to the north; it's got Iran to 
the south. These are very real concerns, and we are committed 
to working with the government of Azerbaijan to help them 
strengthen their ability to defend their territory, defend 
their sovereignty and territorial integrity and to be sure that 
it's not just words, but actually, the ability to be truly an 
independent country.
    This is the subject, as I mentioned, of ongoing dialogue; 
it's something that we've been very clear in supporting when we 
speak to the leadership in Baku. Our Ambassador, Dick 
Morningstar, has been following up ever since the crisis 
started in Ukraine, and it's something we expect to be working 
very closely with the government of Baku to support them 
publicly and privately.
    Mr. Cardin. I would just point out that OSCE is in a 
particularly strong position here, since both Russia, Ukraine, 
Azerbaijan, Armenia all are full members of the OSCE. It has 
had some success within Ukraine on its mission on providing, at 
least, objective eyes of what's happening in the eastern part 
of Ukraine. Do you see the OSCE mechanism working towards 
trying to provide some confidence in that region on some 
semblance of territorial integrity?
    Mr. Rubin. Mr. Chairman, I think OSCE has a very strong 
track record in this region, and as a matter of fact, has 
played the central role in the peace process between Azerbaijan 
and Armenia since the conflict began more than 20 years ago, 
and to this day, OSCE is the premiere international 
organization on the ground in Azerbaijan and Armenia, through 
the Minsk Group, through the mission on the ground that 
monitors the situation along the line of contact, through the 
mission that helps promote efforts to broaden dialogue.
    So I think OSCE is already, in many ways, in the lead, but 
then, going beyond that, dealing with the situation that we 
have post the crisis in Ukraine, I think, yes, there is a real 
possibility for the organization to play a greater role.
    Mr. Cardin. Well, the Nagorno-Karabakh conflict is one of 
the longest frozen conflicts in Europe. The United States is 
part of the Minsk Group. The Madrid Proposal is now many years 
old. It still looks like the principal framework to try to make 
progress in regards to the conflict. What is the current 
status? Are there any breakthrough likely to occur that could 
move this conflict to a resolution?
    Mr. Rubin. As one of the three co-chairs of the Minsk 
Group, we've been working very closely with Russia and France 
to try to come up with ideas to try to move this forward this 
year. We would, I think, be very reluctant to predict 
breakthroughs, but I think progress is very possible, that the 
three co-chairs have worked hard to come up with an approach 
that both countries can accept for a series of meetings, 
including a summit meeting of the two presidents. We've been, I 
think, very strong in supporting the Minsk Group through 
appointing a senior American diplomat and experienced 
negotiator, Ambassador Jim Warlick, to work this issue full-
time, which he's been doing since last year.
    Cooperation with the other two co-chair countries--France 
and Russia--is very good, and I think all three countries, 
together with the larger OSCE community, are determined to try 
to make possible some opportunities this year. One of the 
things we have done is spoken through the three co-chairs about 
the vision of a settlement. It is the vision that has been 
reflected in past rounds, including in Madrid.
    And the goal is to try to get both countries together with 
the co-chairs to agree on a path forward. The goal now is to 
see if we can get a meeting of the two leaders scheduled in 
coming months, and we're hopeful and optimistic that that will 
happen, and we believe that both leaders do want to see 
progress. We think it's important to support them in that.
    But also, to push--as you said, Mr. Chairman, it's been 
more than two decades. This is a real conflict. It is a live 
conflict. People die every year. It's literally a shooting 
war--thankfully usually on a small scale, but nonetheless 
unacceptable in the 21st century to have this going on. And 
getting this settled in the interest of all of the people 
involved in both countries--both populations is a very, very 
high priority for us.
    Mr. Cardin. Is the Madrid proposal still very much the 
framework that we believe is the appropriate framework to make 
progress, or is there expectations that there will be a new 
proposal or modifications of that proposal that will move 
forward?
    Mr. Rubin. Mr. Chairman, the three co-chairs laid out a 
vision for moving forward this year that drew very heavily on 
the principles reflected in Madrid, and indeed, on every 
iteration of this process, because the basic concept is pretty 
much the same, and has been since the negotiation began, but 
literally, using the Madrid proposal, I think, is not going to 
happen, because neither country wants to use Madrid alone, but 
I think anything that they come up with--and this was reflected 
in the statement by the co-chairs--will look a lot like Madrid, 
because there is no other real approach to solving this other 
than based on the principles of OSCE and the United Nations 
charter, and that is what Madrid was, and that is what the 
current approach is.
    Mr. Cardin. I've been active in the OSCE for many years and 
this has been on our agenda every year. It's very frustrating. 
And I know it's not easy, but it seems to me that it's within 
the leadership of the United States and Russia and France, as 
the co-chairs of the Minsk Group, to make this a more urgent 
priority, particularly with the anxiety that currently exists 
in Europe. It seems to me that a breakthrough in regards to 
this conflict would have a major positive impact on confidence 
and stability in that region. So I would urge you to make that 
a very high priority to try to make progress.
    Let me turn to your comments in regards to the economy and 
the obvious: that so much of their economy is based upon oil 
and gas. And I agree with you that it's in our interest to see 
whether they can't diversify their economy, and I'm going to 
get to that in one moment, their accession to the WTO. But in 
regards to the energy sector, we've seen the vulnerability of 
Ukraine to Russia, and having a supply of alternative energy is 
very much in the U.S. interest; very much, I think, in the 
regional interest. So the pipeline is of great interest.
    I mentioned originally that Azerbaijan was the first 
country to embrace the EITI. That doesn't mean they're 
complying with it. Can you just bring us--this commission up to 
date as to what is the current status of their energy 
commitments to transparency? I will get to corruption in one 
moment, but do we have hope that they are following the best 
practices of the EITI in regards to their arrangements with the 
mineral extractive industry companies so that the people of 
Azerbaijan have a hope of knowing whether those resources are 
going to the advancement of their country?
    Mr. Rubin. Thank you, Mr. Chairman. This is a subject of 
very active discussion, not just between the United States and 
Azerbaijan but, as you mentioned, as part of the WTO accession 
process with their other partners. Azerbaijan has been the 
critical country, I would say, in advancing energy 
diversification for Europe, and it's not just a question of the 
past projects such as BTC but the very real project now to 
bring the Shah Deniz to resources, to Europe through the Trans-
Anatolian and Trans-Adriatic pipelines, which the United States 
strongly supports.
    So this is about big, important projects, and we strongly 
agree with you that it's very important that there be 
transparency. Our ambassador in Baku, Dick Morningstar, is, I 
think, more familiar with these issues than anyone else, having 
worked BTC personally and having been involved in every stage 
of this since the 1990s. This is part of his regular dialogue. 
This will be part of our dialogue with Azerbaijan when we have 
our regular economic talks with Azerbaijan.
    We believe the Azerbaijani government is serious about the 
commitments it's making as part of the WTO accession process 
and the commitments it's made to the partners in the 
international energy projects, and we will continue focusing on 
this in our dialogue with them.
    Mr. Cardin. Thank you.
    Now, Secretary Melia, let me just make an observation and 
ask you in regards to the corruption and human rights issues in 
Azerbaijan. You correctly identified our strong interest in 
stability of partners and to have a stable partner, that that 
country needs to have a commitment towards economic opportunity 
for all of its citizens, sharing the wealth of the country and 
adhering to international norms on human rights--not our norms 
but international norms on human rights.
    No country is perfect, and this commission has been 
critical of all countries including our own in regards to 
meeting the Helsinki commitments. I was recently in Ukraine and 
my observations there was that the protesters were more 
concerned about a government that was honest than it was about 
trying to pick sides on loyalty. They wanted an independent 
Ukraine where the resources of their country went to the 
benefit of their people, free from corruption.
    In Vietnam--it was very clear in all of our discussions 
that Vietnam has a serious problem of corruption and they need 
to deal with it. We now have an opportunity in the TPP to have 
reasons for progress to be made in Vietnam on good governance. 
In Singapore, at the Shangra-La security conference, we brought 
up frequently the good governance issues as it relates to 
security in that region.
    So my question to you is, as we look at Azerbaijan's 
membership in the WTO, what specific reforms should be the 
highest priority? What efforts can we reasonably expect to deal 
with corruption or to deal with the freedom of the media or, as 
you point out, the freedom to travel, which is a basic 
commitment within the Helsinki Accords? In Vietnam we have a 
checklist--literally a checklist of progress that we believe is 
reasonable to be made. And we've gone over that with the 
Vietnamese government officials, and we had a very, I think, 
positive exchange when they were here on the human rights 
basket with their delegation and my visit to Vietnam. What 
expectation do you believe are reasonable for us to anticipate 
in Azerbaijan?
    Mr. Melia. Well, Mr. Chairman, you've very eloquently 
described a major challenge that we have in many parts of the 
world in trying to deal with partner governments to bring them 
into the modern economy in a way that enables the prosperity to 
be shared more widely in each of these countries. You're 
exactly right in describing the situation in Ukraine as one 
that was animated by this very question of lack of transparency 
and accountability by authoritarian governments that don't feel 
like they have to tell their people what they do with their 
money. That is the heart of the issue and it's--I don't know 
that there is a single magic silver bullet that can solve these 
problems. It's part of the tapestry of democratic governance 
and respect for rights that we're working to try to help 
Azerbaijanis achieve.
    We know that, like many other countries, there is anti-
corruption legislation in place in Azerbaijan. There's a 
national action plan; there's all kinds of formalities. And 
there have been some small steps taken at the local level in 
some places, particularly around Baku, to eliminate petty 
corruption, the kind of small-bore, fee-for-service kind of 
corruption that police and local administration officials--
they've set up these ASAN centers, which is the Azerbaijani 
word for ``easy.'' It's like the easy-button place where you go 
to get all your licenses and permits and so on, and those seem 
to be having some positive impact in their realm of where the 
ordinary public engages with local administration.
    But the larger question about where the massive resources 
go and where the endemic corruption at a macro level, that 
requires a country in which journalists are allowed to report 
on what their government does; where a parliament, reflecting 
the diversity of opinion in the country, can have open and 
public hearings about exactly these kinds of issues; where NGOs 
can be watchdogs and publish reports without fear of 
retribution. Those are all the things that Azerbaijan needs and 
could benefit from. They could be a more stable country, a 
country where prosperity is more widely shared if they were 
respecting the rights of people to ask questions and research 
and talk about these issues.
    So there's a whole welter of fundamental freedoms that are 
constrained in Azerbaijan right now, as we've just gone 
through. And the people who are trying to bring these issues to 
public discussion end up unjustly imprisoned for their work. So 
there's a--the fundamental freedoms do hobble a--lack of 
respect for fundamental freedoms is a major impediment to any 
country trying to do the responsible thing in terms of fighting 
corruption and establishing a responsible government.
    Mr. Cardin. Before we leave at the end of this month, we 
will review with you some of the specifics, particularly 
individuals who have been arrested and imprisoned, because we 
do believe putting a face on the issue is one of the best ways 
you can get the attention necessary to make the fundamental 
changes. Yes, we want to see these individuals released or not 
harassed, but we also want to see fundamental changes, not just 
in their laws but the way their laws are enforced.
    So it's not as simple as just the constitutional provisions 
or legal changes, because there are many countries that are 
very oppressive that have laws that would seem to provide basic 
rights to their citizens but the way that they're enforced deny 
them the opportunity to enjoy universal basic rights. So we 
will be looking to Azerbaijan to make these changes, not 
because we're asking them to. It's their commitments under OSCE 
and it's their commitment to their own people that we think 
will allow the country to become a more prosperous and more 
stable ally in that region for peace. So we'll continue to work 
with you to develop that type of list.
    One additional question before I turn it over to Senator 
Wicker, and that is that Azerbaijan has a very constructive 
relationship with Israel--of course our close ally in that 
region. Can you just bring us up to date as to how that 
relationship has played out in regards to regional stability?
    Mr. Rubin. Sure. Thank you, Mr. Chairman.
    I think the Azerbaijani-Israeli relationship is a model. It 
is definitely a source of not just security and economic 
benefit to both countries but also a source of stability in the 
region. Azerbaijan has been very supportive not just 
bilaterally and privately but also publicly of Israel's 
security, of the need for a peace process that will succeed in 
the Middle East in bringing a just and lasting settlement and 
also security to all the countries including Israel. We see 
this as something that's very positive. Also, that relationship 
has been very important in terms of counterterrorism 
cooperation, which is something that we value greatly and see 
as a benefit to us and the entire international community, as 
well as to Azerbaijan and Israel themselves.
    Mr. Cardin. Senator Wicker has led an OSCE delegation, 
Helsinki delegation, to Baku, so he's our expert on Azerbaijan. 
(Laughter.) And he will be joining us in our visit later this 
month.
    Senator Wicker.

  HON. ROGER WICKER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Well, thank you. And thank you, Senator Cardin, 
for your leadership in this issue, for your leadership in OSCE. 
When we go to these meetings, the leadership around Europe 
knows they can look to Ben Cardin for a great degree of 
knowledge and understanding and wisdom about these issues.
    For a country the geographic size of Maine and a relatively 
small population, I think we rightly give a lot of attention to 
Azerbaijan because of the importance not only locally there but 
in the region, and what it says about the rest of that area. 
The administration has sent one of our best people there in 
Ambassador Morningstar. For a location so small, I think the 
administration recognizes the strategic importance of having a 
Dick Morningstar there. And we greatly benefited as a 
delegation last year--I guess it was 4th of July when our 
delegation was there.
    How important is it, do you think, gentlemen, that OSCE is 
the locale of this summer's Parliamentary Assembly and that the 
eyes of Europe--not only the United States and the 
international press, but the entire European community will be 
on this little location--they just had the presidential 
election where we had OSCE observers--and that's so 
strategically located? Is there any particular benefit or 
significance to the fact that we're having the PA meeting there 
in late June?
    Mr. Rubin. Senator, thank you, and thank you for your 
commitment to this relationship and for your travel there last 
year. I absolutely would agree that Azerbaijan is significantly 
more important than its size would otherwise suggest, for many 
reasons. Location is one of them. Commitment to supporting the 
international community in places like Afghanistan is another. 
Energy diversification is a third.
    So it's absolutely true that supporting Azerbaijan's 
independence, territorial integrity should be a high priority--
is a high priority for us. As you mentioned, the president's 
choice of Dick Morningstar, a former ambassador to the European 
Union, as ambassador to Azerbaijan testified to that 
importance.
    Mr. Wicker. It's a statement.
    Mr. Rubin. It's a statement. And it was meant as a 
statement, a very positive statement. So I think in that regard 
it's absolutely true.
    We think it's very positive that the Parliamentary Assembly 
will be going to Baku. It's an opportunity for dialogue and 
familiarization in both directions, with ideas, concerns, and I 
think it should be a very good dialogue. I think members of the 
PA will see a lot of progress in Azerbaijan. Those who have not 
been there in a long time but are coming back will certainly 
see that evident progress. There are obviously other issues 
such as the ones that Deputy Assistant Secretary Melia has 
suggested that are also important to have as part of that 
discussion, so we hope it's a very broad discussion and we 
think the spotlight on Azerbaijan and its importance is 
justified and valuable.
    Mr. Melia. These are important opportunities to demonstrate 
not only a partnership with government officials and 
parliamentary counterparts, but we're hoping that you would 
also have time to meet with some of the people that we've 
talked about who have sought to be responsible watchdogs and 
advocates for reform, anticorruption, for fair elections, et 
cetera, and who find themselves harassed often by the 
government and by various levels of government. So we hope that 
you'll--you and other colleagues from other legislatures will 
use the opportunity to demonstrate a broader--a broad interest 
in Azerbaijan as a society and the various aspects of its 
society and make a point of meeting with a number of people 
beyond official corridors.
    Mr. Wicker. I think it's important for us to hear all 
different points of view.
    Mr. Rubin, you mentioned Afghanistan. And our hat is off to 
the Azerbaijanis for their great help with our effort in 
Afghanistan, is that not correct?
    Mr. Rubin. Senator, absolutely. I think the role that 
Azerbaijan has played throughout the NATO, ISAF and U.S. 
bilateral engagement in Afghanistan has been very important, 
deeply appreciated--and not just the role in facilitating the 
Northern Distribution Network and transit to and from 
Afghanistan but also Azerbaijan's readiness to put boots on the 
ground and to stay there, as they still are, under--currently 
under Turkish command. And ISAF is very, very important.
    Our discussions with Azerbaijan about the security of the 
region are quite broad and quite important. Azerbaijan's 
location, as I mentioned earlier, is central not just in the 
strategic sense but also economically in terms of trade and 
transit in the future, we hope, global trade through that 
region. So, very much so, and we do very much appreciate the 
role that Azerbaijan has played in the effort in Afghanistan.
    Mr. Wicker. So when we talk about the location--I suppose 
this might have been mentioned during your testimony or during 
Senator Cardin's questioning, but they're so very, very close 
to Iran and so very, very close to Russia, and yet they--in 
spite of that--they've chosen to seek the friendship of the 
United States. And I think that speaks volumes, does it not?
    Mr. Rubin. Senator, I would absolutely agree. And I think 
the one thing that's been clear since Azerbaijan's independence 
is the determination of not just its leadership in the various 
governments over the years but also of Azerbaijanis as a whole 
to defend their independence. It was hard-won. It was defeated 
after the first attempt almost a century ago. And I think 
that's something that unites all Azerbaijanis. It's something 
that we strongly support.
    Obviously Azerbaijan needs to have a relationship--good 
relationship with Russia and Iran, its two big neighbors. They 
have to balance that. We recognize that. But the commitment to 
the relationship with us, with NATO in the Eastern Partnership 
with the European Union is obviously something they've chosen 
and is very important.
    Mr. Wicker. I think it's a profound statement on the part 
of the leadership of that country as to how they view the 
United States as a friend in a neighborhood where there are 
very powerful forces to the north and south. And yes, you're 
correct, Mr. Rubin; they need to be friendly with their 
neighbors and have good relations.
    This hearing, Mr. Chairman, has a broad scope--security, 
economic and human rights. It touches on almost everything. 
There is a Eurasian Economic Union now consisting of Russia, 
Belarus and Kazakhstan. Armenia is about to join that. Isn't 
that right, Mr. Rubin? Now, what effect is that going to have 
on our friends in Azerbaijan?
    Mr. Rubin. Well, Senator, Azerbaijan has chosen to pursue 
its own policy on economic ties with its neighbors, and we 
think that's the most important aspect of this broader 
question. It's the point that we've been emphasizing.
    Mr. Wicker. That it's their decision?
    Mr. Rubin. That it's their decision, as it is Ukraine and 
Moldova and Georgia's decision to proceed with association with 
the European Union. We've said in regard to Kazakhstan and 
Armenia that their choice to join the Eurasian Economic Union 
is also their choice as long as it's freely made and not under 
coercion.
    Azerbaijan has said that they want good ties with all the 
blocs and countries but don't intend to pursue direct 
association with either. They are pursing WTO membership. 
They're pursing expanding trade through those means, and we 
think that should be their choice, as it is for every country.
    Mr. Wicker. Ben, did you get into the election observers?
    Mr. Cardin. No.
    Mr. Wicker. Well, let me ask you this. Mr. Chairman, I 
believe we had OSCE election observers there last year, and was 
this Parliamentary Assembly and----
    Mr. Cardin. ODIHR.
    Mr. Wicker [continuing]. The ODIHR. OK, so actually two 
entities within OSCE sent election observers.
    Mr. Melia, would you comment as to how beneficial that was, 
how effective they were, how much access they had and how much 
information the OSCE and Helsinki community got as a result of 
these two organizations going in and helping with observation?
    Mr. Melia. Well, we were reminded just a couple of weeks 
ago in Ukraine how important and valuable it is to have eyes on 
the ground and in large numbers as the OSCE, ODIHR and the 
Parliamentary Assembly typically do. Having people from across 
Europe, east and west, to be on the ground in Ukraine was very 
important for all of us to know what was happening, to be able 
to make a sound judgment about that process and to be able to 
validate the expressed will of Ukrainian people.
    Similarly, in Azerbaijan last year there were multiple 
delegations, international, including the OSCE delegations and 
local networks of observers. The EMDS is the Azerbaijani group 
that's been trained over these two decades by international 
professionals from the National Democratic Institute and 
others, and they also provided eyes on the ground and 
dovetailed with what the OSCE teams were doing.
    And in this case, you know, the reports were much less 
favorable than they were in Ukraine last month, and there were 
shortcomings in the election process last year that ODIHR, in 
its very dry and literal kind of way pointed out. That's a 
basis for reform efforts going forward to improve the 
administration of elections, and more importantly perhaps the 
political environment surrounding the elections so that there's 
more chance for freedom of expression and mobilizing different 
political views.
    So the OSCE statements on the presidential election last 
year were critical, and they were echoed by our own statement 
at the time, which was also pointing out that we wished it had 
been a better process. And we do that in--our purpose in doing 
that is not just to point fingers but it's to lay a basis for 
future reform efforts to improve the quality of the process. So 
the role of OSCE observers has been very valuable in that. We 
hope it will continue.
    And we also hope that domestic citizens of Azerbaijan will 
continue to be able to monitor their own government's process 
and performance as well. Unfortunately, since that election, 
the EMDS network has had a number of allegations raised about 
its tax management and tax payments, its financial management, 
the international grants that support them. And the leader of 
that organization has been prosecuted, and so for--you know, 
basically for issuing a critical report. It goes back to the 
point raised by Senator Cardin a few moments ago about 
corruption. You can't deal with problems in governance unless 
you can talk about them, and right now people are getting 
punished for raising questions and trying to talk about how to 
improve their society. So that's going to be a--you know, a 
constraint on the improvement of the political process in 
Azerbaijan.
    Mr. Wicker. In the view of the department, did the election 
reflect the judgment of the electorate as a whole in 
Azerbaijan?
    Mr. Rubin. I think, given the nature of the political 
environment in Azerbaijan, the fact that one of the leading 
opposition politicians who wanted to be in that election as a 
presidential candidate was instead in jail throughout last year 
and is still in jail today; given that the leader of one of the 
main opposition parties cannot travel because the government 
won't given them a passport, I mean, these are the kinds of 
things that add up to, you know, an environment where it's hard 
to tell what the people's choices are. The people don't have a 
chance to cast a ballot, you know, in the way that we would 
hope they could. So that's why our statement said that the 
process fell short of our expectations and hopes.
    Mr. Wicker. Thank you, Mr. Chairman.
    Mr. Cardin. Let me just observe, I was in Kiev for the 
Ukrainian elections. And just to let Senator Wicker know, I was 
with Senator Portman a little before the time that one of the 
precincts was scheduled to open, and we saw a long line of 
people anxious to cast their votes. We saw a little bit of 
chaos as they were trying to open up the precinct as early as 
they possibly could. And, quite frankly, it reminded me of my 
home precinct in Baltimore at the same time.
    So it was, I think, very educational for me to observe an 
election in Europe. And it was very clear that--except in 
eastern Ukraine, where there was violence preventing people 
from voting, the elections met international standards. And 
that was the conclusion by the observers, that it did meet the 
international standards for a free and fair election and the 
will of the people was clearly shown with Mr. Poroshenko 
receiving an overwhelming majority.
    In Azerbaijan the vote was overwhelming. And popular 
sentiment, I think, would probably reflect that, but because of 
reasons we've already stated--the opposition not having 
adequate opportunity to present their case, not having the 
freedom of the media, and the integrity of the election process 
itself; that is, ensuring that the votes that were cast were 
actually counted appropriately, which there was not that type 
of integrity in the system there--led to the conclusion that it 
was not a free and fair election under international standards. 
So that's an area where Azerbaijan needs to improve. It may not 
have changed the outcome of the election, but it can't get the 
stamp of international recognition that the OSCE monitors are 
there to provide. So for all those reasons we were unable to 
certify the election.
    We're joined now by my co-chair, Congressman Smith. I'll 
let him catch his breath, if he likes. (Laughter.) He will lead 
our delegation in Baku. We alternate between the House and 
Senate on the annual head of our delegation. So Congressman 
Smith will lead the delegation and he has traveled extensively 
throughout that region, so we really do plan to be a very 
active participant.
    I made the observation in the beginning of this hearing 
that this country is very important to U.S. interests. We have 
a lot of strategic partnership issues in security and energy 
and fighting extremists, and it is for that reasons that we pay 
particular attention, but other countries are also paying 
attention. Senator Wicker mentioned the fact that Azerbaijan 
borders Russia. What we want is an independent Azerbaijan. We 
want a country that will exercise what's right for its own 
people, but we want a country that's stable, that respects 
human rights, that has economic opportunities for all of its 
citizens as well as a strategic partner on national security 
issues with the United States.
    With that, let me recognize and turn it over to Chairman 
Smith.

HON. CHISTOPHER SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman and Ranking 
Member Wicker. And I want to welcome our very distinguished 
panelists and thank them for their service to our country and 
for raising these extraordinarily important issues, 
particularly as it relates to human rights.
    It will be, I think, really important that we head back to 
Baku. Senator Wicker led us there last year for some very 
important meetings with high-level officials. And at the time 
we did raise the human rights issues very robustly, and I know 
we'll be back there doing it again within the parameters of the 
Parliamentary Assembly but also with some bilaterals that I 
know that we will engage in.
    I do have a full statement, Mr. Chairman----
    Mr. Cardin. Sure.
    Mr. Smith [continuing]. That I'd like to make a part of the 
record. But again, I just want to thank you for calling this 
very timely hearing so that we're further empowered, informed; 
so that we understand, you know, from the department 
especially, what your insights and recommendations will be. And 
this, I think, will be a good trip. And I thank you, Mr. 
Chairman, for convening this hearing.
    Mr. Cardin. Great. We're going to turn to the second panel. 
Let me thank both of our witnesses for their testimony and we 
look forward to working with you as we travel to Azerbaijan.
    Mr. Rubin. Thank you, Mr. Chairman.
    Mr. Melia. Thank you.
    Mr. Cardin. Let me turn to the second panel: Miriam 
Lanskoy, who is the director for Russia and Eurasia, the 
National Endowment for Democracy; and Brenda Shaffer, the 
visiting researcher, Center for Eurasia, Russia and East 
European Studies, Georgetown University. It's a pleasure to 
have both of you with us today. You've been, I know, a valuable 
resource to our commission and we appreciate that. As I 
explained in the introductory remarks, this hearing is for 
preparation for our visit to Azerbaijan and the attendance of 
our delegation at the OSCE Parliamentary Assembly later this 
month. With that, we'll start with Ms. Lanskoy.

   MIRIAM LANSKOY, DIRECTOR FOR RUSSIA AND EURASIA, NATIONAL 
                    ENDOWMENT FOR DEMOCRACY

    Mr. Lanskoy. Thank you. Mr. Chairman, I'm grateful to the 
Helsinki Commission for holding this hearing and for giving me 
an opportunity to speak. The National Endowment for Democracy 
is a private, nonprofit foundation dedicated to the growth of 
democratic institutions around the world. NED has been working 
in Azerbaijan for many years and maintains a large portfolio in 
Azerbaijan.
    Over the last 10 years, freedom in Azerbaijan has declined 
gradually, but over the last year, there has been an 
unprecedented crackdown. Through membership in the Council of 
Europe and the OSCE, Azerbaijan has committed itself to the 
protection of human rights. Unfortunately, Azerbaijan obtains 
the prestige associated with these organizations without 
fulfilling their basic conditions.
    Azerbaijan is the chairman of the Committee of Ministers of 
the Council of Europe, a body charged with ensuring compliance 
with the judgments of the European Court of Human Rights. 
However, Azerbaijan itself has not complied with numerous 
decisions of the European Court, and though Azerbaijan violates 
OSCE norms of human rights, it is about to host the 
Parliamentary Assembly.
    Recent events in Ukraine have complex implications for 
Azerbaijan. The protests that toppled the corrupt government 
there rattled nerves in Baku. But numerous prior revolutions in 
the region have had little effect on Azerbaijan. More 
significant for Baku is the annexation of Crimea, because that 
means that Russia is an arbiter of borders on the territory in 
the former Soviet Union and can decide these questions 
unilaterally. The crisis in Ukraine highlights the need to 
diversify energy sources, and this creates opportunities for 
Baku to seek out partners and extend its influence while at 
home it is taking advantage of the crisis to silence critics of 
the government.
    The number of political prisoners continues to grow. 
Amnesty International has recognized 19 prisoners of 
conscience. The U.S. Commission for International Religious 
Freedom, in its annual report which was just released, provides 
a list of 51 religious prisoners in Azerbaijan. Human Rights 
Watch has published a comprehensive report that contains cases 
against activists, human rights defenders and journalists.
    I want to touch on a couple of these cases. Two prominent 
opposition figures, Tofig Yagublu and Ilgar Mammadov, were 
sentenced to five and seven years. In its ruling on this case, 
the European Court found that Azerbaijan is in violation of 
several articles of the convention, including Article 18, and 
it has awarded damages to Ilgar Mammadov. The European Court 
found that the actual purpose was to silence or punish the 
applicant for criticizing the government. The Committee of 
Ministers of the Council of Europe, which Azerbaijan now 
chairs, is supposed to oversee the implementation of a court's 
decisions.
    Human Rights Watch has profiled the use of narcotics 
charges against youth activists who apparently had drugs 
planted on them by police. Youth activists criticized the 
government on social media, they were arrested for narcotics 
charges, they were questioned about their politics, and they 
received long jail sentences. And Human Rights Watch has 
several cases of this happening.
    Finally, I want to draw your attention to the case of Leyla 
Yunus, who's the director of the Institute of Peace and 
Democracy. She's done--she's worked on human rights for 20 
years--many types of issues, including compiling lists of 
political prisoners. The government has retaliated against her 
in the past, most clearly in 2011, when her office was 
demolished. She was questioned in connection with a case 
against Rauf Mirkadirov, who's an Azeri journalist who is now 
being held for participating in Track 2 meetings with 
Armenians. During the questioning, over a month ago, Leyla and 
her husband, Arif, had their passports taken away, but no 
charges have been filed. Their passports should be returned and 
they should be permitted to travel.
    Pressure against NGOs is continuing to mount. New 
amendments to the NGO law made it illegal for unregistered 
groups to receive grants or donations. Penalties for NGOs that 
don't register a grant were expanded. Onerous reporting 
requirements have been extended to international organizations. 
Grantees report months of efforts to register grants and 
withdraw funds from banks. So you can have a registered 
organization, a registered grant--and it's a big struggle to 
register--and then still not be able to access your funds from 
a bank account. And this seems to so far be inconclusive; 
there's different scenarios unfolding there.
    There is considerable apprehension that the new regulations 
will be selectively enforced against organizations that are 
critical of the government. Even prior to these amendments, 
Azerbaijan was violating freedom of association by 
overregulating NGOs. The Venice Commission found that the 
process of registering NGOs in Azerbaijan was too cumbersome, 
lengthy and unpredictable. And in five separate decisions, the 
European Court has found that Azerbaijan violates freedom of 
association by denying registration to NGOs.
    Baku should be bringing its NGO legislation in compliance 
with the European Court and with the Venice Commission opinions 
rather than imposing even more burdens on NGOs.
    The case of the Election Monitoring and Democracy Studies 
Center illustrates why these laws are used to silence critics 
in the government. EMDS, as a vote-monitoring organization, has 
made numerous attempts to register and has repeatedly been 
denied. EMDS entered into a contract with a registered 
organization to carry out its activities. This arrangement 
became grounds to sentence Anar Mammadli to 5\1/2\ years and 
Bashir Suleymanli to 3\1/2\ years.
    In closing, I'm grateful to the Helsinki Commission for 
convening this hearing. I hope that the commission will remain 
engaged by calling on the government of Azerbaijan to release 
political prisoners and repeal new regulations against NGOs. 
Further, I would urge that the Parliamentary Assembly which 
will convene in Baku--for it to include voices from Azeri civil 
society. I would also urge members of Congress who travel to 
Azerbaijan to visit political prisoners in prison and meet with 
their families.
    Mr. Chairman, Azerbaijan has a longstanding democratic 
tradition. In 1918, it became the first democracy in the Muslim 
world. The civil society of Azerbaijan works to fulfill that 
legacy and remind the government of its OSCE commitments. These 
brave and talented people should be permitted to do their 
important work without harassment and intimidation. Thank you.
    Mr. Cardin. Thank you for your testimony. Ms. Shaffer?

   BRENDA SHAFFER, VISITING RESEARCHER, CENTER FOR EURASIAN, 
    RUSSIAN AND EAST EUROPEAN STUDIES, GEORGETOWN UNIVERSITY

    Mr. Shaffer. As a teenager growing up in the San Francisco 
Bay area, on the bed--on the wall next to my bed, instead of 
posters of rock stars or Hollywood actors, I had a picture of 
the Helsinki Declaration Final Act. (Laughter.) My mom's 
listening to this. She can probably confirm it.
    These principles inspired most of the activism of my youth, 
and even as a high school student at Burlingame High School, a 
district represented by Congressman Tom Lantos, I went to the 
Soviet Union, visited Soviet Refuseniks, visit other, non-
Jewish, human rights activists in the USSR and I'm--therefore 
I'm--my voice is shaking, because I'm honored and moved to 
testify at the Senate Commission of the--for the Security and 
Cooperation in Europe, because these principles have been so 
much a part of my youth and my own activism.
    As part of that visit in 1982, I actually visited Soviet 
Azerbaijan and started my interest in the South Caucasus. The 
Soviet--Azerbaijan is a Shiite Muslim-majority country with a 
strong Western orientation and a desire, as was pointed out by 
the earlier testimonies, for a strong alliance with the United 
States. Azerbaijan is not only a place where there's freedom of 
religion, but freedom from religion--something that's too often 
absent in the world. Secular people have the right to live free 
of religious coercion, and government protects the right of 
people, again, to freedom from religion as well.
    Azerbaijan is a land where Jews have never experienced 
anti-Semitism. They don't talk about feeling unwelcome in 
Azerbaijan, because they feel part of Azerbaijan, and no 
Azerbaijanis would consider them guests in any sense in 
Azerbaijan.
    Women were granted the right to vote in Azerbaijan two 
years before suffrage was granted in the United States and 
decades before many states in Europe.
    Azerbaijan is important, as mentioned here, to the U.S. in 
a wider number of issues, including its policy towards Russia, 
relations with Iran, nuclear nonproliferation, Middle Eastern 
regional security and European energy security. Its location as 
the only state in between the Arctic Ocean and the Persian 
Gulf--except between Russia and Iran and Azerbaijan, only three 
states on that lateral--its location is both a blessing--that's 
why we're here today, we're discussing this country--but also a 
curse, because if you sit in between Russia and Iran, your 
stability, your independence is quite constrained.
    This almost treacherous balancing act that the regime finds 
itself in Azerbaijan between balancing strong orientation 
towards the United States, integration in Euro-Atlantic 
structures but also peaceful relationships with Russia and Iran 
is extremely challenging because not only does it have this 
foreign policy aspect but also domestic policy and military 
conflicts are intertwined. Russia and Iran use military 
conflict, use taking of territory, use even the domestic 
political arena in order to promote their views. Maybe if we 
held this hearing before the invasion of Crimea, we might--it 
would be maybe difficult to make the case. I think now today 
it's apparent to all how Russia operates in its--in its close 
environment. Russia has used military force to promote its 
goals in Ukraine and Georgia, neighboring countries. It uses 
the electoral process and civil society organizations. Russian 
citizens have ran in elections in Azerbaijan, Georgia and 
Latvia. Could you imagine a parallel in another country where 
foreign citizens run to the leaderships of different countries 
to try to get its way? And it's promoted separatists in a 
number of neighboring countries also to promote its interests--
Moldova, Ukraine, Georgia and Azerbaijan.
    The U.S. and even the OSCE Minsk group has done--has taken 
a number of steps to try to promote resolution of these same 
ethnic conflicts that afflict the region. Unfortunately, lack 
of recognition of the role that Russia plays in these conflicts 
really hurts and hinders the work of the OSCE Minsk Group and 
of the United States. For two decades the U.S. and the OSCE 
Minsk Group has chided the leaders of Armenia and Azerbaijan 
for not preparing their people for peace, for not doing enough. 
I think now it's very clear that the leaders of Armenia and 
Azerbaijan really do not have an independent decision on this 
issue. And in fact, three times they have come to--initialed 
very, very serious peace agreements between Armenia and 
Azerbaijan, and each time this agreement was derailed by its 
northern neighbor.
    Azerbaijan is also very important to Washington in terms of 
Washington's Iran policy, but for the same reason, Iran works 
very hard to destabilize Azerbaijan. Iran, we call it Persia, 
Persian music, Persian people, is a multiethnic country where 
half of the population is ethnic minorities, and all in all, a 
third of the population of Iran is ethnic Azerbaijanis. So with 
Iran keeping this in mind does everything possible to keep 
Azerbaijan away from prosperity, involved in wars, involved in 
conflicts because it fears if Azerbaijan is a fully stable, 
open society, it could be a source of emulation for its own 
Azerbaijani minority. Even, by the way, Khamenei, the spiritual 
leader or the leader of Iran, is native Azerbaijani, and 
Mousavi, head of the green movement, native Azerbaijani. It's a 
very serious question for Iran's stability as well.
    European energy security. Azerbaijan is the only country 
that is bringing in additional supplies of gas, not rerouting 
existing supplies of gas into Eastern Europe. The southern 
corridor, while volumes are small at the beginning, they target 
specifically vulnerable countries which have almost a hundred 
percent dependent on Russia. And this is basically a 
superhighway that once it's built, other regions such as the 
Balkans can easily link into it. Other supply sources, such as 
from Iraqi Kurdistan or from Israel, could eventually use this 
infrastructure. So it's very important for European energy 
security--again, quite noted by Russia, and we'll probably 
genuinely, as we see, see attempts to undermine this project.
    I think that the people in Azerbaijan take very serious 
your commission, your work, the U.S. government's statements on 
the state of regime and the state of human rights and the state 
of democracy. The only thing where I think where it's very 
problematic, some of the statements that have come, are related 
to religious freedom. And this is where sometimes I think 
people in the government feel no matter what we do, we really 
can do no right with the United States. Of all--of all places, 
the field where--you look at the reports from the national 
commission on religious freedom, I think this is where--the 
place where the United States government has not done the 
best--most professional work.
    There is a place--for instance, some of the criticism as 
related to Azerbaijan has blocked anti-Semitic literature from 
Iran to enter into Azerbaijan. I applaud that they blocked 
that. I think this is an independent decision. Germany has a 
law against anti-Semitic literature. We don't go into Germany 
and say why do you block anti-Semitic literature. On the 
question of terror financing, the United States, if you had 
Hamas sending money into religious organizations in the United 
States, you would find those violations and you would find 
people put on trial. I don't think that the United States has 
to intervene when funds or literature are coming that their 
whole attempt is to destabilize a country and to destabilize 
the very positive ethnic and religious makeup of the country.
    And the last, even on the issue of religious coercion, if a 
country decides that it wants to give children, young girls, 
the choice to not be veiled and be coerced by their parents to 
be veiled, this balance between right of the parents to 
religious freedom and right of the child the choice is really a 
place where I think the U.S. government shouldn't intervene and 
to allow states to make their independent decisions.
    This is the last point that as the U.S. improves 
relationship with Iran, it disengages from another arenas--a 
number of a arenas such as Iraq and Afghanistan, we're going to 
need our allies on the ground more than ever. If we're 
physically not in these places, we're going to need our allies. 
And I think it's very important in your mission that you go 
there as a friend. Things that have to be improved, we improve 
as allies, and we improve as friends, and I thank you for your 
work in this direction.
    Mr. Cardin. Well, thank you both for your testimony.
    Ms. Shaffer, thank you for taking on the responsibility of 
more people knowing about the Helsinki Commission. I can't 
imagine what you woke up to every morning--(inaudible). But we 
appreciate that. I think that prior to Russia's incursion in 
the Ukraine, most Americans had never heard of OSCE or the 
Helsinki Commission. And it clearly is an extremely important 
organization for U.S. interests. So we thank you for your 
passion on the work of our commission.
    Let me assure both of you that Azerbaijan has made 
commitments for access for NGOs at our annual meeting so that 
we will have opportunities to meet with the NGOs, there will be 
free access for all points of view so that we can have an open 
discussion at our parliamentary assembly.
    I want to ask both of you basically what you think the 
opportunities are now for strengthening not just the U.S. ties 
with Azerbaijan but also adherence to the OSCE principles 
within Azerbaijan. As has been pointed out, what has happened 
with Russia and the incursion into Ukraine and, previous to 
that, Georgia, is certainly on the minds of the Azerbaijanis. 
There's no question about that. And with Armenia developing 
closer ties with Russia, as they have with the economic 
partnership and their vote in the United Nations on Ukraine, it 
seems to me that the Azerbaijanis recognize that there could be 
serious issues in Russia's taking sides on territorial issues 
in that region.
    I'm sure there are other reasons why there is a desire to 
strengthen their ties with the United States. We have strong 
strategic partnerships. And yet it's important to us that 
Azerbaijan adhere to all the principles of Helsinki, not just 
the security basket and the economic basket but also the human 
rights basket.
    So where do you believe that the most progress can be made 
in strengthening the relationship between the United States and 
Azerbaijan as particularly it relates to the Helsinki 
commitments? Whoever wants to go first.
    Mr. Shaffer. Yes, I agree with you, Senator Cardin, that 
Ukraine, Crimea, this is an earthquake for the region, I think 
not only because of the violation of territorial integrity, 
because if you're Georgia, Moldova, Azerbaijan, you've already 
had a chunk of your territory pulled out with Russian support--
I mean, the Soviet Union, there were hundreds of disjunctures 
between the ethnic and national borders. The only places, with 
the exception of Chechnya, where violent conflict broke out 
were places where there was Russian support. I mean, these wars 
are not about ethnic conflict, but they're about one power 
using different groups in order to leverage over other groups.
    But what's I think particularly--why there is an interlap 
between the domestic and the foreign policy here and where your 
work is important is that--think about for countries in the 
region. Crimea happens. It's not just a military invasion. 
Everything was in place. There were people there to run the 
government. There were parliamentarians ready to make the vote. 
It was very smooth. And I think this is what--why it's really 
been a very scary incidence for the people in the region. 
Again, they know about taking territory, but to see how porous 
many of their countries are, finding the proper balance between 
protecting yourself from that infiltration and proper 
maintenance of human rights and OSCE principles I don't know 
what the magic formula it is, and hopefully you have some 
answers for that.
    I think that when there is a strong and engaged U.S., it's 
better for prosperity and human rights than when the U.S. just 
sits on the sidelines and complains and says this isn't good. I 
don't want to live in a world where the strongest power isn't 
the United States and it's any of the alternative powers. And 
so we need to keep our allies.
    In terms of specific issues where I think you could find a 
lot of cooperation with the government and can be improved on 
that--human rights and rule of law issues, one is property 
rights in Azerbaijan, strengthening the process of property 
rights--when people have control of their property, it's an 
important part of the citizenship--and continuing development 
of the democratic culture in universities, which I think has 
been a very positive development in Azerbaijan.
    Mr. Cardin. Thank you.
    Ms. Lanskoy?
    Mr. Lanskoy. Thank you. I'm going to start with the 
geopolitics and come back to the OSCE principles.
    Azerbaijan has a very skillful foreign policy. It's true 
that they're in a tough neighborhood, but they've become very 
good at creating different types of relationships with their 
neighbors. President Aliyev recently visited Tehran. He's also 
visited Baghdad. He has good relations. There are new border 
crossings being opened with Iran. There is robust trade with 
Iran. The Azeri defense minister was recently in Moscow meeting 
with Russian and Iranian counterparts, and he came out of those 
meetings saying that he was very satisfied with defense 
cooperation in many spheres with both Russia and Iran. 
President Putin visited Baku last summer and endorsed President 
Aliyev during a critical moment in the presidential elections. 
Russia's Rosneft and SOCAR have just signed a joint venture. 
Azerbaijan is able to have a relatively--a very, actually, I 
would say, independent foreign policy. Does not have Russian 
military bases. It does not have a Russian ethnic minority. It 
is economically independent of Russia. Russia is not as big as 
trading partner.
    So Azerbaijan is able to use these situations to its 
advantage. And it is using the current crisis and the attention 
paid to Ukraine and to energy issues to carry out a domestic 
crackdown. There is no reason to suppose that the crackdown is 
somehow inspired by either Russia or Iran. Azerbaijan changes 
the subject. And what it can do and what it has seen it can do 
over the last 10 years of participating in Council of Europe 
and more than 10 years, 20 years of participating in the OSCE 
is that it can change the subject away from its human rights 
and domestic--the democracy obligations to subjects of energy 
and security and never have to address the human dimension. 
They have seen that indeed, they can go from just joining the 
Council of Europe to taking up important positions within it, 
that they can go from just being a participant in the OSCE to 
actually hosting the parliamentary assembly and not improve. 
ODIHR has monitored eight elections, national elections in 
Azerbaijan since 1995. Their recommendations have never been--
they--each time they issue recommendations, there is no follow-
through on that from Azerbaijan.
    You raised in the last panel coming up with some specific 
benchmarks. You could take recommendations from ODIHR. You 
could take political prisoners, release of political prisoners, 
treatment of NGOs. You could also draw their attentions to some 
strong anti-American statements that come from high levels of 
Azeri government, like the head of the presidential 
administration, who blames American NGOs for the revolution in 
Ukraine, for instance. You could note the treatment of Senate 
staff when they met with Azerbaijan's opposition journalists. 
They were denounced in the press. They were denounced by 
parliamentary members of Azerbaijan. And that's treatment of 
Senate--of Corker's staff that--Azerbaijan wants to have part 
of a relationship but not others, and they simply can't--simply 
can't have.
    Mr. Cardin. Give you your top three in priority order that 
you would like to see progress made, that you believe, knowing 
the politics of the region, could be achieved?
    Mr. Lanskoy. They could easily repeal the NGO--the new NGO 
legislation. That would just return it, in terms of a 
benchmark, return it to a few years back, say. And you could 
come up with specifics. We could work with ICNL (ph) to come up 
with some, you know, very technical specifics. They could 
release political prisoners. They could start with the 19 
identified by Amnesty International as prisoners of conscience. 
And they could undertake working seriously with ODIHR to follow 
up on specific--on specific ODIHR recommendations.
    Mr. Cardin. That's very helpful. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Just let me 
ask a couple of questions.
    On Monday I returned from four days on the ground in Abuja 
in Nigeria--second trip is about 10 months. I was in Jos last 
September where a number of Christian churches had been 
firebombed by Boko Haram. This time I met with a number of 
survivors again, including one of the Chibok girls, who--and a 
father whose two daughters were among the Chibok abductees, and 
he's Muslim--a moderate Muslim but Muslim nevertheless, 
although Christians are targeted.
    We know just from reading yesterday's newspapers that a 
major gain has been made by the radical Islamists in Iraq. 
Afghanistan is a cauldron, and getting worse. Syria remains a 
place where both sides are slaughtering people, especially 
Christians. I've held several hearings on the fact that the 
rebels, particularly the disparate elements who are radical 
Islamists, have been slaughtering Christians by design, not as 
collateral--they're in the way but simply targeting Christians.
    And two weeks ago I chaired a hearing with Robert George of 
the Commission on International Religious Freedom. He was very 
concerned--and I know it was just mentioned in testimony that 
there is a concern that on religious freedom we have not stood 
up as robustly as we could. There have been no CPC designations 
since 2011. Those that are in force have lapsed. Another list 
of countries that ought to be CPC have not been put on the 
list. There has been no ambassador-at-large for half of the 
president's tenure. We hope someone with the credentials of 
Rabbi Saperstein may soon emerge as the person to be 
ambassador-at-large for international religious freedom, but 
delay is denial.
    And Robert George, again, the chairman of the religious 
freedom commission, said that Azerbaijan is a Tier 2 country 
right on the bubble, if you will, in terms of religious 
persecution. So there is this surge going on everywhere. I see 
it all over Africa. My committee is Africa, Global Health, 
Global Human Rights, and so I'm frequently there. And the 
chairman knows because he follows Africa like the back of his 
hand as well, these organizations in the Middle East and 
everywhere else are--this is not ebb tide; this is surge. And 
I'm wondering if you could speak to how this is impacting 
Azerbaijan. Where are they in terms of the intolerance? Are 
they batting any worse? You mentioned 19 political prisoners, 
and I think your recommendation to visit, or try to, is an 
excellent one.
    Last year when we were in Baku, led so ably, our 
delegation, by Senator Wicker, we had a very, very frank 
discussion with the president, with Aliyev, and we raised human 
rights issues point by point by point. And I think he was a bit 
miffed that it was such a blunt conversation, but all members 
joined in. It was a very good discussion. So of course we'll do 
that again. And I know Senator Cardin never holds back, nor do 
I, especially when it comes to human rights. So this religious 
freedom issue, which seems to be festering as never before, and 
your thoughts with regards to Azerbaijan.
    Secondly, one of the issues I raised with the president 
last year--since 1982 I have been raising the issue--I've been 
in Congress 34 years now--particularly as it relates to the 
People's Republic of China with the aggressively anti-female 
policy of sex-selection abortion. China is now missing 100 
million girls. Worldwide, especially in India and in China, the 
three most dangerous words are: It's a girl. And after five 
months, when an ultrasound is done, very often if discovered 
that it's a girl she is killed. She's decimated, exterminated. 
Now, we raised that in Baku because in Azerbaijan there is a 
serious, serious problem of sex ratios of more boys than girls, 
and I'm wondering if you've seen those reports, your thoughts 
on that, because a girl child is being targeted. And of course 
this then becomes a magnet for human trafficking.
    The reason why China is on Tier 3 lists--and I wrote the 
Trafficking Victims Protection Act of 2000. Last year Secretary 
Kerry wisely put China on Tier 3, liable to sanctions, simply 
because of the magnet that the missing girls has created when 
systematically they have been exterminated since 1979 through 
sex-selection abortion, maybe as many as 100 million missing 
daughters. Azerbaijan, nowhere near the same aggregate numbers 
but they have a serious problem, and I'm very worried that 
there will be a nexus with trafficking into Azerbaijan because 
of the missing girls. Do you see any of that?
    Finally, the political prisoners that you would recommend 
that we meet with, perhaps privately or now, you know, if you 
had an order of who it is that you think we should go all out 
as a commission to meet with, please tender that list.
    Mr. Lanskoy. So thank you. That was very comprehensive.
    In terms of who to meet with, I realized just now that 
neither me nor the previous speakers mentioned NIDA youth 
group, they're eight youth activists who just received long 
prison terms as well. We could come up with a list. I think 
taking Amnesty's 19 and maybe choosing some from different 
categories--there are some journalists that are in prison--
maybe also looking at people who have been in jail longer. The 
list that Leyla Yunus put together has 130 people. That's an 
Azeri NGO and they've been tracking it since the `90s. Some of 
their political--some of the political prisoners they identify 
have been there much longer, since the `90s, for instance.
    So we can come up with different types of activists. If 
you're interested in meeting religious activists, there are 
some that are imams that had drugs planted on them, for 
instance, that you may choose to try to see.
    In terms of freedom of religion, in Azerbaijan the main 
issue is not--Dr. Shaffer has pointed out that Jews have always 
been welcomed and are seen as--and generally in the Caucasus 
that's the case. Jews are seen as a native--have been there for 
2,000 years and are seen as a native. So it's not so much Jews 
or even Christians. I think it's a much smaller Christian 
community, but different strands within Islam, and whether 
mosques are registered or unregistered and whether they belong 
to a spiritual board.
    There's a license board that has a near monopoly on 
religious observance, and those laws have also been tightened 
in 2000. There was amendments to the law, or a new law, in 
2009, and those have been used to make illegal Muslim practice 
outside of a very narrow range. That, I believe, is the main 
issue that has led to more and more prisoners, and also that 
the religious can be government critics.
    It is not necessarily about maintaining a kind of monopoly 
on religious practice, but it's also that certain imams emerge 
as critics of the government and they are the ones who are 
being--who are being put in jail. So I think that that's 
definitely an important issue in Azerbaijan as well. As you 
probably mentioned also, there are different--among Christian 
groups--Baptists, Jehovah's Witnesses, so forth--groups that 
are newer to Azerbaijan that also can be subjects of 
harassment.
    Mr. Shaffer. You know, Azerbaijan is far from perfect on 
human rights and democracy, and it's good that there is the 
dialogue with the U.S. government, with the U.S. Congress on 
these issues. Religious freedom is not the issue. All the 
different--the important examples you gave of extremism, of 
discrimination against women, against--the country isn't 
perfect but this is the one area where they should be getting 
the star on their report card and not--and not--and not the 
criticism.
    There are fine lines. When you look at, for instance, the 
idea of freedom for NGO financing and prevention of terror 
financing, even in U.S. legislation finding that proper balance 
where you allow an organization to be free and to associate 
with who it wants and to promote what it wants, on the other 
hand to prevent moving of funds--I mean, the U.S. government is 
the leader around the world at preventing of terror financing. 
Then when one of its allies implements this legislation, 
prevents money transfers from Iran from extreme religious 
organizations, it's criticized by the U.S. government.
    The idea of proselytization that have been related to--in 
U.S. reports this comes out as prosecution against Christian 
minorities. These are not native minorities. These are not 
people that were born in Azerbaijan. These are people that come 
to proselytize in Azerbaijan. I know I've spent a big chunk of 
my life in Israel. It also has a law against proselytization. 
I'm very--and I'm very happy it does so that people can 
actually be free from coercion and be free from constant 
inundation of religious propaganda.
    Mr. Smith. You're not suggesting that when somebody 
proselytizes there's an element of coercion in it, are you?
    Mr. Shaffer. It depends. If you are--if you're a----
    Mr. Smith. In Israel?
    Mr. Shaffer. In Israel there's a law that prevents it, 
actually, so there isn't--there isn't--and again, there's been 
questions in the U.S. national commission on religious 
freedom----
    Mr. Smith. I mean, free speech is involved here as well.
    Mr. Shaffer. Sorry?
    Mr. Smith. Free speech is involved here as well.
    Mr. Shaffer. I think--you know, from research even that 
I've read of the commission on religious freedom, that the 
issue of--right to proselytization and freedom from harassment 
is a very fine line where the commission--again, maybe in the 
next hearing a commission member can speak on this, but it's a 
fine line where I don't think there's any consensus where 
freedom of--where freedom of religion starts and where freedom 
from harassment starts. So it's very--I don't think that's--the 
right to proselyte, is that something that the U.S. wants to 
promote around the world even if an independent government 
wants to see it in a different way?
    Even the question of who's a--who's a political prisoner. A 
number of the defined political prisoners by the EU in Europe--
in Azerbaijan, excuse me, are actually people that were tried 
for receiving funds from Iran and being members of terrorist 
organizations that worked to--had plots to blow up the U.S. 
embassy, kill the U.S. ambassador, blow up the Israeli embassy, 
kill leaders of the Jewish community in Azerbaijan. So again, 
member in a terrorist organization or political prisoner? It's 
a very--defined quite differently by different organizations.
    The question of human trafficking, I don't--I don't think 
there's any prominent citizen of Azerbaijan, researcher, who 
would not say their government has worked strongly to prevent 
trafficking, that this is something that's very--part of the 
government policy. It's not just part of the nongovernment 
policy. And the government has also worked against early 
marriage--of course, marriage of young girls in Azerbaijan--
again, at times criticized by human rights organizations. Why 
are there--why are there laws, you know, preventing the child 
to do what the parent wants when their goal is to--is to 
preserve the freedom of the child?
    Mr. Smith. And the missing girls?
    Mr. Shaffer. I'm not aware on the--of this issue of the----
    Mr. Smith. OK. Just with all due respect on the 
proselytization issue, if there was coercion involved where 
people are being told they must, that's one thing. And it's a 
difficult line of demarcation between harassment--I mean, the 
free speech ought to be as unfettered as possible, and that 
goes for religious freedom as well.
    So I would hope that, you know, if somebody wants to take 
either the Gospel or any other faith-based creed and bring that 
to a country--of course, we hope they would do it with 
sensitivity to the local culture, but I think we have to be 
very careful to ever construe that to be coercion. Coercion is 
physical or some other kind of compulsion with real 
consequences, often beatings or economic penalties. I don't see 
preachers doing any of that. So I would hope that, you know, we 
would be very careful about how we define coercion. Thank you.
    Thanks, Ben.
    Mr. Cardin. Well, let me thank both of you for your 
testimony. It's been extremely helpful to us, and particularly 
in trying to set up priorities for our visit as to where we can 
make the most impact, and we will certainly take that 
information into consideration. We work very closely with our 
State Department, who also will supply us with comparable 
information of where we think it's important to try to 
strengthen the ties between our two countries and to see the 
type of progress made that helps promote that type of 
improvement of our bilateral relationship.
    With that, the hearing will stand adjourned. Thank you all 
very much.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Benjamin L. Cardin, Chairman, Commission on 
                   Security and Cooperation in Europe

    Good morning and welcome to today's hearing on the security, 
economic and human rights dimensions of the U.S.-Azerbaijan 
relationship. I am looking forward to leading a congressional 
delegation to Azerbaijan at the end of this month where we will attend 
the OSCE Parliamentary Assembly Annual Session, and have bilateral 
meetings as well.
    Azerbaijan has consistently been at the forefront of Commission 
attention since its independence, and for good reason: the United 
States considers Azerbaijan an important friend and partner in the 
region and that means we care deeply about its development.
    The Nagorno-Karabakh conflict is a serious obstacle to regional 
stability, security and prosperity, and certainly is an issue where we 
want to see progress because the status quo is not sustainable. I look 
forward to discussing today how we might further the OSCE Minsk Group 
discussions toward a solution to this conflict.
    The US and Azerbaijan have a history of strategic cooperation. 
Azerbaijan has played an important role in the Northern Distribution 
Network. It has troops serving on the ground in Afghanistan. It made a 
strong statement in support of Ukraine's territorial integrity by 
voting with the United States in the UN Security Council. So while we 
have significant concerns, we also have much to celebrate with 
Azerbaijan.
    The domestic political situation in Azerbaijan is troubling because 
Azerbaijan is moving in the wrong direction. While we have consistently 
seen problems with freedom of the media and freedom of association, the 
last two years have seen a high number of arrests and convictions of 
activists that all bear the hallmark signs of politically-motivated 
prosecutions. In addition we have seen journalists such as Khadija 
Ismayil and Rauf Mirkadirov, and human rights defenders such as Leyla 
Yunus harassed or detained. The election of President Ilham Aliyev last 
year was criticized by the OSCE and by the Council of Europe. Our 
concern is that rather than working to live up to its commitments in 
the OSCE and the Council of Europe, Azerbaijan is instead heading 
toward greater authoritarianism. We want to work with Azerbaijan to 
change that trend.
    Often in the world of international affairs we see things in only 
black or white. Something is either good or bad and there is little 
room for nuance. But I believe that our relationship--our friendship--
with Azerbaijan requires us to be honest and sincere. Sincere in our 
appreciation for the things where we agree, and honest in the areas 
where we see problems. The United States needs a stable and prosperous 
Azerbaijan. But absent real democratic progress, we will not see true 
stability or development.
  Prepared Statement of Christopher Smith, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    This is a very timely hearing as the Commission prepares to visit 
Baku for the OSCE Parliamentary Assembly's annual session. As we 
prepare to visit Baku, I believe it's imperative for this Commission to 
discuss the grave deterioration of human rights in Azerbaijan over the 
past few years.
    I have in front of me here a timeline prepared by Commission staff 
of all of the politically-motivated harassment of journalists, 
prosecution of the opposition, and jailing of activists. It's amazing 
how in just the last two years the government of Azerbaijan has changed 
for the worse.
    In March 2012 a reporter for RFE/RL, Ms. Khadija Ismail, was 
humiliated and blackmailed when an intimate video of her filmed 
covertly in her apartment was released to the public. She has continued 
to be harassed and called in for questioning and I have no doubt that 
this harassment is due to her tenacity in researching and reporting 
corruption at the highest levels of government.
    In February 2013 Azerbaijan changed its law on non-governmental 
organizations to follow the harsh model set by Russia.
    In February 2013--two opposition politicians, Mr. Tofig Yagublu of 
the opposition Musavat Party and Mr. Ilgar Mammadov, chairperson of the 
opposition group REAL, are arrested on charges of orchestrating anti-
government protests. They have now been sentenced to lengthy jail 
terms.
    In July 2013, despite pledges to do otherwise, Azerbaijan enacted 
its law on criminalization of online defamation. Azerbaijanis face jail 
time of up to three years for content they post online.
    In December 2013, Mr. Anar Mammadli, head of the Election 
Monitoring and Democracy Studies Centre (EMDS) in Azerbaijan, is placed 
in pre-trial confinement pending his trial on charges of illegal 
enterprise, tax evasion and abuse of authority. Mammadli was previously 
questioned on numerous occasions after EMDS issued a report documenting 
widespread electoral violations during the October 2013 election. He 
has now been sentenced to a lengthy jail term.
    Unfortunately, these are only a few of the many cases over the past 
two years. While we all recognize the important role Azerbaijan plays 
in the energy sector, and we also recognize that Azerbaijan has carved 
out for itself a forward-leaning international relations policy that 
seeks to balance the pressures from Russian and Iran with friendly 
relations with the U.S. and Israel, the special role of this commission 
is to urge and insist that OSCE governments meet their human rights 
commitments. As a participating State in the OSCE and as the chair of 
the council of ministers of the Council of Europe, Azerbaijan has 
indicated that it wants to be a part of the world community. It wants 
to be seen as a leader. If that is the case, then we need to see more 
leadership, and less authoritarianism.
    I look forward to hearing the testimony today. Thank you.
                    Prepared Statement of Eric Rubin

    Mr. Chairman, Members of the Commission, thank you for inviting me 
to speak to you today about our bilateral relationship with Azerbaijan. 
I would also like to thank you for the Commission's strong efforts to 
promote the principles of the Helsinki Final Act at this critical 
moment in the region's history. Your participation in the OSCE 
Parliamentary Assembly election monitoring mission in Ukraine two weeks 
ago sent a powerful signal that the United States will support free and 
fair elections in the OSCE region and throughout the world. Your 
upcoming participation in the OSCE Parliamentary Assembly Annual 
Session in Baku will serve as an important means of examining how OSCE 
member states are living up to the pledge to provide ``human security'' 
for all their citizens.
    Our partnership with Azerbaijan remains an important aspect of our 
engagement in the Caucasus. For over twenty years, the United States 
has been working with Azerbaijan to promote a secure, prosperous, and 
democratic society. Since 1992, we have provided approximately $1.1 
billion in assistance to pursue these goals.
    My testimony today will focus on three core areas of this bilateral 
relationship. First, I will talk about our security cooperation. 
Second, I will look at our evolving economic relationship, including 
energy diversification and our efforts to promote economic reform. 
Finally, I will briefly examine the country's democratic development--
DAS Melia will cover this in greater detail.
    First, Azerbaijan has been a key partner for the United States and 
NATO from Kabul to Kosovo. Azerbaijan currently has 94 troops serving 
in Afghanistan and has committed to remain involved in the country 
beyond 2014. It has completed missions to Iraq and Kosovo. Azerbaijan 
is a key node in the Northern Distribution Network and air route 
sending non-lethal goods in and out of Afghanistan. Thousands of 
containers go through customs and thousands of state and commercial 
flights transit Azerbaijan each year.
    As such, strengthening Caspian security, countering terrorism, 
stemming the proliferation of weapons of mass destruction, and 
enhancing maritime domain awareness continue to be top priorities for 
U.S. assistance to Azerbaijan. Since we began providing security 
assistance in 2002, the United States has been working to strengthen 
Azerbaijan's capacity to monitor the Caspian and protect critical 
energy infrastructure. Over the past 12 years, we have provided $44.4 
million in Foreign Military Financing and $9.9 million in International 
Military Education and Training and Export Control and Border Security 
programs that focus on military professionalization, building 
operability, and enhancing border security. And we are providing 
approximately $4 million in fiscal year 2014.
    Where we do provide security assistance to Azerbaijan, we are 
careful to ensure it is used in full compliance with the law--including 
Section 907 of the 1992 Freedom Support Act and the waiver authorities 
for U.S. efforts to counter terrorism, support the operational 
readiness of U.S. Armed Forces or coalition partners to counter 
terrorism, ensure Azerbaijan's border security as long as it is 
determined that such assistance will not undermine or hamper ongoing 
efforts to negotiate a peaceful settlement to the Nagorno-Karabakh 
conflict between Armenia and Azerbaijan or be used for offensive 
purposes against Armenia.
    And the United States is working diligently to facilitate a 
peaceful settlement to the Nagorno-Karabakh conflict. As a co-chair 
country of the OSCE Minsk Group, along with France and Russia, the 
United States has worked in recent months to articulate the substantial 
benefits that peace would bring to people across the region. In doing 
so, we are focusing on pragmatic steps to bring the sides into 
negotiations on a peace agreement based on the core principles of the 
UN Charter and the Helsinki Final Act. We hope the presidents of 
Armenia and Azerbaijan will agree to meet in the near future to 
continue the constructive dialogue begun at their summit last November. 
It also is important that both governments support Track II efforts to 
build people to people contacts between Azerbaijanis and Armenians. 
These kinds of confidence building measures can help to prepare 
citizens of both countries for peace. We are troubled by the recent 
arrest of well-known journalist Rauf Mirkadirov, the subsequent 
investigation of Leyla Yunus and her husband Arif Yunusov, their poor 
treatment by the authorities, and confiscation of their passports. All 
three have been strong proponents of the Track II process and the 
Azerbaijani government's actions will have a chilling effect on any 
contact between Azerbaijanis and Armenians. DAS Melia will elaborate 
further on this point in his testimony. Helping both sides resolve this 
conflict is a key element of our relationships with both Azerbaijan and 
Armenia, and we fully support the Minsk Group co-chairs in their 
efforts to facilitate a more constructive phase of negotiations.
    Second, the United States enjoys growing economic cooperation with 
Azerbaijan, particularly in the area of energy. As Europe looks more 
resolutely to diversify its sources of energy away from its dependence 
on Russia as part of its energy security strategy, Azerbaijan is 
emerging as a potentially crucial supplier of diversified natural gas 
supplies for our European allies, and the United States has been a 
longstanding supporter of Azerbaijan's efforts to provide its energy 
resources to European markets. The Baku-Tbilisi-Ceyhan oil pipeline, 
which began operating in June 2006, represents the first direct 
transportation link between the Caspian and the Mediterranean seas. At 
full capacity, it can deliver more than one million barrels of oil per 
day to market. The BTC pipeline was an early success for our Southern 
Corridor diplomacy, and now we are focused on developing a gas link 
between Azerbaijan and Europe. The construction of the Trans-Anatolian 
Pipeline across Turkey and the Trans-Adriatic Pipeline to southern 
Italy will complete the Southern Gas Corridor, bringing Caspian gas to 
western Europe for the first time. Last December, after more than a 
decade of U.S.-led energy diplomacy in support of the Southern Gas 
Corridor, a final investment decision was made on this project, which 
will bring 10 billion cubic meters of natural gas--and potentially 
more--through this network of pipelines from Azerbaijan across six 
countries to western Europe starting in 2019.
    While energy remains an important part of our bilateral economic 
relationship, it is not the only focus. Given our close cooperation on 
the Northern Distribution Network and our ongoing transition in 
Afghanistan, we are actively encouraging Azerbaijan and its neighbors 
to take advantage of this important window of opportunity to transform 
the NDN into a commercial network for trade and investment when many 
freight forwarders are still in the region.
    Azerbaijan and its neighbors could become a premier trade and 
transportation corridor between Europe and Asia, but to do so, they 
must first reduce costs associated with high customs and tariffs and 
address delays caused by a lack of regional coordination. Time is of 
the essence, and the United States supports reforms that will create 
sustainable sources of non-oil revenue in Azerbaijan and new 
opportunities for U.S. exports and investment. For instance, Azerbaijan 
likely will obtain the necessary certifications to operate direct 
passenger and cargo flights to the United States this year.
    The United States also promotes the export of U.S. goods and 
services to Azerbaijan. Azerbaijan has already purchased hundreds of 
millions of dollars worth of airplanes and a communications satellite 
from the United States, and it will undoubtedly purchase more in the 
future. U.S. agricultural firms are interested in selling heavy 
equipment and technology, and American oil companies want to explore 
and develop new oil and gas fields in the Caspian to supply the 
Southern Corridor. The United States also supports Azerbaijan's 
accession into the WTO and the rules-based system in which its members 
participate. Opportunities for U.S. exports could increase 
significantly.
    In this context, it is important to note the role that corruption 
plays in the entire OSCE space, and Azerbaijan is no exception. It is a 
blight that tears at the economic, political, and social fabric of 
society, weighing on the country's economic potential, driving up 
inefficiencies, and scaring away foreign direct investment. Working 
with the Government of Azerbaijan and local partners, the United States 
is committed to enhancing our efforts to address this. Ultimately, 
countries with strong checks and balances including a strong and 
independent judiciary and apolitical civil service--are most likely to 
be effective in combating corruption.
    Finally, our strongest relationships world-wide are with 
democracies that respect the full range of human rights of their 
citizens. We seek strong cooperation on democratization with 
Azerbaijan, just as we collaborate closely on security and economic 
issues. Azerbaijan's respect for human rights and fundamental freedoms, 
and progress on democratic reform is key not only to strengthening our 
bilateral relationship, but also to Azerbaijan's own long-term 
stability. We have some serious concerns about the environment for 
democratic development and the protection of human rights in 
Azerbaijan, which has been deteriorating. My colleague Tom Melia will 
touch more on that in a moment.
    I want to emphasize that the United States remains committed to a 
constructive dialogue with Azerbaijan based on friendship between our 
people and mutual respect between our governments. But a constructive 
dialogue means that we can and must have frank and honest discussions 
in areas where we disagree. Discussing matters of agreement and 
disagreement in a candid way is part of the nature of a serious 
dialogue.
    Going forward, our relationship will continue to be based on these 
three core areas--security cooperation, economic and energy 
cooperation, and democratic development. Our mission remains to address 
each of these three areas with equal rigor and resolve. And we are 
committed to working with Congress in a bipartisan manner in our 
efforts to realize each of these and the full potential of this 
relationship.
    Thank you.
                 Prepared Statement of Thomas O. Melia

    Mr. Chairman, Members of the Commission, thank you for inviting me 
to speak to you today about the democracy and human rights dimension of 
U.S.-Azerbaijan relations in advance of your visit to Baku later this 
month for the OSCE Parliamentary Assembly Annual Session. My colleagues 
at the State Department and I greatly appreciate the dedication of you 
and your fellow Commissioners and your staff to the OSCE and its 
institutions--especially to the enduring principles enshrined in the 
Helsinki Final Act and the body of commitments that comprise the OSCE's 
``human dimension.'' We also greatly value our regular consultations 
with you and your staff.
    I would like to start by referring to a key principle of the OSCE, 
as set forth in the 1991 ``Moscow Document'' and notably reaffirmed in 
the 2010 Astana Summit Declaration, in which OSCE participating States 
agreed unanimously that:

        issues relating to human rights, fundamental freedoms, 
        democracy and the rule of law are of international concern, as 
        respect for these rights and freedoms constitutes one of the 
        foundations of the international order. They categorically and 
        irrevocably declare that the commitments undertaken in the 
        field of the human dimension of the OSCE are matters of direct 
        and legitimate concern to all participating States and do not 
        belong exclusively to the internal affairs of the State 
        concerned.

    This concept linking respect for human rights within states to 
lasting security among states is reflected in our multilateral 
interactions and in our bilateral relationships with all OSCE 
participating States, including Azerbaijan. It forms the basis on which 
the United States continues to support efforts to advance democracy 
worldwide. In Azerbaijan, this constitutes one of three equally 
important core goals, which Deputy Assistant Secretary Rubin has just 
spoken to. U.S. officials at all levels in Baku and Washington 
regularly highlight the importance of respect for human rights and 
fundamental freedoms, rule of law, and other basic building blocks of 
democracy, publicly and privately. U.S. officials regularly meet with a 
variety of Azerbaijanis, ranging from government officials to civil 
society activists and opposition political party representatives.
    While serving as Deputy Assistant Secretary of State, I have 
visited Azerbaijan three times, holding valuable meetings with leading 
government officials, including President Ilham Aliyev, as well as with 
opposition political leaders, civil society actors, and journalists. I 
have been joined on these missions to Azerbaijan, as well as to other 
countries, by senior colleagues from the Department of State's European 
and Eurasian Affairs Bureau, USAID, and the Department of Justice. I 
believe these are important opportunities to listen to Azerbaijanis 
inside and outside of government, to share with them our thoughts, and 
to demonstrate that we do care about all three dimensions of the 
relationship. Indeed, I would like to visit Azerbaijan again soon to 
continue these conversations.
    The United States also provides assistance to support Azerbaijan's 
democratic development efforts, with an emphasis on support for civil 
society, independent media, and rule of law. The largest part of this 
assistance is provided by our colleagues at USAID, and we in the State 
Department work very closely with them to ensure that these programs 
are neatly lined up with our overall policy priorities. Similarly, we 
work closely in Washington and Baku with the legal experts provided by 
the Department of Justice in the Overseas Prosecutorial Development 
Assistance and Training program. Our inter-agency partnership is 
working very well.
    Just two weeks ago, on May 28, Azerbaijan celebrated the 96th 
anniversary of the day in 1918 on which it became the first majority 
Muslim, democratic republic in the world. The Azerbaijan Democratic 
Republic lasted only 23 months, until it was invaded by the Soviet Red 
Army and forcibly incorporated into the nascent Soviet Union, where it 
remained captive for more than seven decades. Since Azerbaijan regained 
its independence in 1991, it has begun to modernize, and its people 
have become more integrated into the wider world.
    With regard to building democratic institutions and developing 
democratic norms, Azerbaijan has taken some positive steps. For 
example, it established six administrative government service centers 
in Baku and the regions (known as ``ASAN,'' which means ``easy'' in 
Azeri) intended to eliminate corruption by public officials at the 
local level. More broadly, however, we have been seeing increasing 
constraints on fundamental freedoms that increase the risk of domestic 
instability, undermine confidence the rule of law will be respected, 
and prevent Azerbaijanis from reaching their full potential.
    Five years ago, it was already difficult for advocates of 
democratic reform--especially opposition political parties--to 
participate in the political life of the country, but it was still 
possible for NGOs and independent activists to operate. The environment 
has worsened significantly since then, beginning with the 2009 
incarceration of young democracy activists Emin Milli and Adnan 
Hajizade. Although they were released in 2010, the suppression of 
peaceful dissent increased in 2011, with the arrests of young 
Azerbaijani activists who sought to organize peaceful pro-democracy 
rallies in Baku. The Milli Mejlis (Azerbaijan's parliament) passed 
legislation significantly increasing fines on participants and 
organizers of unauthorized protests in November 2012, which resulted in 
the detention of numerous peaceful pro-democracy activists for baseless 
administrative violations. Since early 2013, the space for peaceful 
dissent has narrowed more dramatically, and the exercise of fundamental 
freedoms has become still more tenuous. A number of leading peaceful 
democracy advocates, civil society activists, and journalists have been 
incarcerated, including presidential candidate and chairman of the 
democratic reform-oriented REAL Movement, Ilgar Mammadov; opposition 
journalist and Musavat Party Deputy Chairman Tofig Yagublu; members of 
democratic youth movements; blogger Abdul Abilov; religious scholar and 
activist Taleh Bagirzade; Khural Editor Avaz Zeynalli; and the chairman 
of NDI's local election monitoring partner, the Election Monitoring and 
Democracy Studies Center (EMDS), Anar Mammadli.
    Additionally, two rounds of legislative amendments since March 2013 
have restricted NGO funding and activity. Officials have pressured 
Azerbaijani and international NGOs, including some USAID implementing 
partners, which in some cases have been subject to investigations by 
the tax and justice ministries. Authorities also launched a criminal 
investigation of EMDS--which has been a recipient of USAID and European 
assistance--and another election monitoring NGO, the International 
Cooperation of Volunteers (ICV) Public Union, soon after the flawed 
October 2013 presidential election. Such actions have resulted in an 
increasingly hostile operating environment for civil society, 
especially for those activists and groups advocating respect for human 
rights, fundamental freedoms, and government accountability; thereby 
depriving citizens the open channels through which they can voice their 
concerns. Pressure on independent defense lawyers has resulted in a 
decreasing number of such lawyers ready to defend individuals in 
sensitive cases.
    Restrictions on the ability of selected Azerbaijani activists to 
travel outside of the country are also a problem, calling into question 
the extent of the government's commitment to freedom of movement, a 
founding tenet of the OSCE. For example, since 2006, the government has 
prevented the foreign travel of opposition Popular Front Party Chairman 
Ali Karimli by refusing to renew his passport. Today in Bern, the 
OSCE's Office for Democratic Institutions and Human Rights is 
discussing the important role of human rights defenders in OSCE 
participating States. Sadly, one of Azerbaijan's leading human rights 
defenders, Leyla Yunus, was unable to attend the event, because 
Azerbaijan's authorities confiscated her passport--as well as her 
husband's--in April. This confiscation occurred in the context of the 
April 19 arrest of well-known journalist Rauf Mirkadirov, the 
subsequent questioning of Leyla Yunus and her husband about Mirkadirov, 
and their poor treatment by police authorities. All three have been 
strong proponents of people-to-people diplomacy, which helps build ties 
between Azerbaijanis and Armenians and is crucial to the peaceful 
resolution of the Nagorno-Karabakh conflict. The peaceful resolution of 
this conflict will open borders, increase security, and create new 
opportunities to trade, travel, and engage across the region. 
Authorities also have prevented some in the international human rights 
community from visiting or returning to Azerbaijan.
    These are not the kinds of actions the United States or the broader 
international community wants to see from a partner, an OSCE 
participating State, and currently the chair of the Committee of 
Ministers of the Council of Europe.
    When President Obama spoke last month at the West Point 
commencement, he explained that:

        America's support for democracy and human rights goes beyond 
        idealism--it is a matter of national security. Democracies are 
        our closest friends and are far less likely to go to war. 
        Economies based on free and open markets perform better and 
        become markets for our goods. Respect for human rights is an 
        antidote to instability and the grievances that fuel violence 
        and terror.

    And he noted that,

        In capitals around the globe--including, unfortunately, some of 
        America's partners--there has been a crackdown on civil 
        society.

    We recognize that Azerbaijan lives in a very difficult neighborhood 
and that its government seeks stability. The United States strongly 
supports Azerbaijan's long-term stability, security, and prosperity. 
The best way to guarantee such a future is to strengthen democratic 
processes and institutions to buttress respect for the rule of law and 
fundamental freedoms. Doing so will foster long-term internal 
stability, create the most inviting environment for economic investment 
and growth, and make Azerbaijan the very best that it can be, by giving 
every citizen the freedom and space to achieve his or her full 
potential, thereby maximizing the contributions of all of its people. 
We consider this to be in both the short-term and the long-term 
interests of both the people and the government of Azerbaijan. The U.S. 
Embassy in Baku and we in Washington have been active on these issues 
and have made these points. For example, Ambassador Morningstar has 
been doing an outstanding job in advocating publicly as well as 
privately for an environment conducive to a vibrant civil society and 
in raising specific impediments to such an environment.
    The United States believes that Azerbaijan will have greater 
stability and prosperity, and will more quickly reach its full 
potential, by allowing a more open society. We therefore will continue 
to support Azerbaijani efforts to advance the country's democratic 
potential, including respect for rule of law, human rights, and 
fundamental freedoms. We will continue to urge Azerbaijan to live up to 
its OSCE commitments and other international human rights obligations. 
We will also encourage Azerbaijan to take advantage of its chairmanship 
of the Council of Europe to take concrete steps on important democracy 
and human rights issues. The positive changes we advocate would benefit 
both the people and the government of Azerbaijan. Such changes would 
also make it easier for us to expand and deepen our bilateral 
relationship, since our strongest relationships are with democratic 
states that respect the full range of human rights of all of their 
citizens.
    As President Obama indicated in his recent message marking 
Azerbaijan's National Day, and to return to where I began, we encourage 
Azerbaijan to reclaim the leadership role on human rights and 
fundamental freedoms that its people and government demonstrated 96 
years ago.
    Thank you again, Mr. Chairman, for this opportunity to discuss 
democracy and human rights trends in Azerbaijan and our overall 
bilateral relationship.
                  Prepared Statement of Miriam Lanskoy

    I am grateful to the Helsinki Commission for holding this very 
important hearing at a crucial historical junction and for giving me 
the opportunity to speak about the state of democracy and human rights 
in Azerbaijan.
    The National Endowment for Democracy (NED) is a private, nonprofit 
foundation dedicated to the growth and strengthening of democratic 
institutions around the world. NED has been working in Azerbaijan since 
the mid-1990s and maintains a large portfolio of projects. Defending 
human rights, a traditional focus of the NED, remains a high priority 
in Azerbaijan. Programs include monitoring, reporting on, and providing 
legal assistance to victims of human rights abuses. NED's programs also 
focus on expanding the capabilities of independent news providers.
    Through membership in international organizations, including the 
UN, the Council of Europe, and the OSCE, Azerbaijan has committed 
itself to the protection of human rights and fundamental freedoms. 
However, despite long term engagement of Azerbaijan with these 
organizations, rights enforcement is highly selective and superficial. 
Azerbaijan manages to obtain the prestige associated with participation 
in international organizations without fulfilling the basic conditions 
of membership. When it joined the Council of Europe (CE) in 2001 it was 
understood that Azerbaijan was not meeting the requirements, but it was 
expected that participation in the CE would stimulate greater 
democratic development. Nevertheless, twelve years later Azerbaijan 
still has not met those basic criteria.
    As of May 2014, Azerbaijan is the Chairman of the Committee of 
Ministers of the Council of Europe, a body charged with ensuring 
compliance with the judgments of the European Court for Human Rights. 
However, Azerbaijan has not itself complied with numerous ECHR 
judgments, particularly those related to freedom of association and the 
release of political prisoners. And though Azerbaijan is not in 
compliance with basic norms of human rights, freedom of speech and 
association that are a fundamental part of its OSCE obligations, it is 
about to host the Parliamentary Assembly of the OSCE at the end of this 
month.
    Despite participation these international forums, over the last 
decade freedom in Azerbaijan has declined substantially. Overall, the 
country has gone from semi-free to a state of consolidated 
authoritarianism. In the Nations in Transit index published annually by 
Freedom House Azerbaijan shows a steep decline in every category of 
governance over the period from 2003 to 2013, with the overall score 
declining from 5.6 to 6.6. As a result, Azerbaijan is much closer to 
Uzbekistan's 6.9 rating than Georgia's 4.7.
    In an overall context of declining freedom, the last year has seen 
a particularly rapid backsliding especially with respect to political 
prisoners, freedom of speech, and pressure against NGOs. In 2013 there 
had been a marked increase in grass roots protests sparked by instances 
of official abuse of power and social injustice. In January and March 
2013 peaceful protests in Baku were violently dispersed, including the 
use of water cannons and rubber bullets. There were dozens of arrests 
and new prohibitions on freedom of assembly, on NGOs, and the media. 
This was the year of the presidential election and the crackdown was 
expected to diminish after those elections were held in October. 
However, it has continued unabated with long prison sentences handed 
down to civil society leaders.
    Recent events in Ukraine have major implications for Azerbaijan, 
and are seen as part of the reason that the crackdown on government 
critics has continued. Some have conjectured that the Maidan protests, 
which toppled the corrupt government of President Viktor Yanukovich in 
Ukraine may have rattled nerves in Baku. However, since Ilham Aliev 
came to power in 2003, there have been revolutions in Ukraine, one in 
neighboring Georgia, two in Kyrgyzstan, and several in the Middle East 
that have had no appreciable effect on Azerbaijan.
    There are two other dimensions of the crisis in Ukraine that have 
even greater significance for Azerbaijan. Russia's annexation of Crimea 
sets a worrisome precedent for the region and may have implications for 
Nagorno-Karabakh and other frozen conflicts. The annexation of Crimea 
means that Russia is the arbiter of borders on the territory of the 
former Soviet Union and can decide these questions unilaterally and 
arbitrarily.
    The crisis in Ukraine has also made the diversification of energy 
supplies a higher priority for Europe and a major opportunity for 
Azerbaijan to become a more significant regional transportation hub for 
gas. There has been a flurry of diplomatic activity by Baku to seek out 
more partners for various potential pipeline schemes. Baku is seizing 
the opportunities to extend its influence internally, while at home it 
is taking advantage of the crisis to silence government critics. The 
crisis in Ukraine has multifaceted implications for Baku, and for that 
reason Azerbaijan votes in support of Ukraine's territorial integrity 
at the UN, while domestically, the head of the presidential 
administration Ramiz Mekhtiev tells the media that the revolution in 
Ukraine was instigated by international NGOs whose work in Azerbaijan 
is suspect and should be drastically curtailed.
    In the interest of time I am limiting my remarks to particularly 
egregious cases of political imprisonment and new onerous requirements 
against NGOs. It should be mentioned that there are numerous other 
problems related to freedom of assembly, freedom of speech, and 
elections. They are documented in numerous reports, including the ODIHR 
monitoring report of the October 2013 presidential election and the DOS 
Annual Human Rights Report, as well as numerous reports by Azerbaijani 
and international NGOs.
                          political prisoner:
    The number of political prisoners continues to grow. The Institute 
of Peace and Democracy in Baku documents 130 political prisoners 
including persons who have been in jail since the 1990s. Amnesty 
International has recognized 19 prisoners of conscience from among the 
activists arrested since January 2013. In September 2013 Human Rights 
Watch published a comprehensive report, Tightening the Screws: 
Azerbaijan's Crackdown of Civil Society and Dissent, which details 
spurious cases against activists, human rights defenders, and 
journalists. I'd like to draw your attention to just a few of these 
cases.
    In March 2014, two prominent opposition figures, journalist Tofiq 
Yaqublu of the Musavat party, and Ilgar Mammadov of REAL, were 
sentenced to five and seven year sentences on false charges of inciting 
rioting in the town Izmaily, where they in fact arrived a day after the 
riot had occurred. Both men are considered Amnesty International 
prisoners of conscience. In its May 2014 ruling in Mammadov's case, the 
European Court of Human Rights, found that Azerbaijan is in violation 
of articles of the convention, including Articles 5 and 18, and awarded 
damages to Ilgar Mammadov. The ECHR found that ``the actual purpose of 
the impugned measures was to silence or punish the applicant for 
criticising the Government and attempting to disseminate what he 
believed was the true information that the Government were trying to 
hide.'' The Committee of Ministers of the CE, which Azerbaijan now 
chairs, is supposed to oversee the implementation of the ECHR 
decisions.
    In May 2014, eight members of the youth movement NIDA, also 
considered AI prisoners of conscience, received sentences ranging from 
6-8 years. The members of the NIDA youth group organized protests 
against the deaths of Azeri Army conscripts in January and March 2013. 
The activists were disseminating criticisms of the government online, 
including Facebook and Twitter. NIDA activists were beaten and 
humiliated in detention and initially denied access to an attorney of 
their choice.
    Human Rights Watch has profiled the use of narcotics charges 
against opposition youth activists who apparently had drugs planted on 
them by police. In each instance a youth activist who posted materials 
critical of the government on social media was arrested for narcotics 
charges but was questioned about political views and activities. In 
separate incidents government critics were prosecuted on highly dubious 
charges of drug possession, tested negative for presence of drugs in 
their bodies, and were initially denied legal representation, and 
subjected to abuse in detention. Rashad Ramazanov, a well-known blogger 
got a nine year jail term; Taleh Bagirov an imam who criticized the 
government in his sermon was sentenced to two years, and Dashig 
Malikov, a activist with the Azerbaijani Popular Front Party, was 
sentenced to two and half years.
    The last case I will mention is of an outspoken critic of the 
government, Leyla Yunus, the Director of the Institute of Peace and 
Democracy, a major human rights monitoring organization and democracy 
think tank in Azerbaijan. Leyla Yunus has been active for two decades 
in many facets of human rights work, including assistance for political 
prisoners, working to reduce torture in detention, protecting women and 
religious and ethnic minorities. Leyla's husband Arif Yunus is a 
historian and political scientist and author of numerous books about 
Azerbaijan. Leyla Yunus's human rights works has repeatedly put her at 
odds with the government, which was most clearly on display in 2011 
when their house was demolished with all her possessions inside after 
she campaigned actively for the property rights of people arbitrarily 
evicted from their homes. In April 2014 Leyla Yunus was detained and 
questioned at length in connection with a case against Rauf Mirkadirov, 
an Azeri journalist detained under dubious treason charges for his 
participation in ``Track II'' meetings with Armenian colleagues. Both 
Leyla and Arif Yunus have participated in numerous such meetings which 
are seen by the OSCE mediators as an important avenue for seeking a 
peaceful resolution to the conflict over Nagorno-Karabakh. During the 
questioning, over a month ago, Leyla and Arif Yunus had their passports 
taken away. Since no charges have been filed against them and there are 
no formal barriers to travel, their passports should be returned and 
they should be permitted to attend conferences such as the OSCE meeting 
in Berne this week that they are unfortunately missing.
                                 media
    Freedom of information has also deteriorated. The government has 
control over broadcast media and most newspapers, and it is now trying 
to establish greater control over the internet. June 2013 amendments to 
the criminal code made defamation over the Internet a criminal offense 
carrying penalties of up to three years in jail. The amendments 
represent a major blow to freedom of expression making it possible to 
launch criminal cases against online activists. During the pre-election 
period Azerbaijan was jamming satellite signals of news programs in the 
Azeri language, including that of RFE/RL. Several journalists are 
serving politically motivated jail sentences including Avaz Zeynalli, 
the editor the opposition newspaper Khural, and Hilal Mammadov the 
editor of the Tolishi Sado newspaper.
                          freedom of religion
    Freedom of religion is another area where a decline has been 
documented. US Commission for International Religious Freedom (USCIRF) 
has downgraded Azerbaijan to a Tier 2 country for the first time in 
2013. The Commission focuses its criticism on the 2009 Law on Religion 
which curtailed a range of religious activity, made unregistered 
religious activity illegal, and imposed extensive government censorship 
of religious literature. The law has been repeatedly amended to 
increase penalties and has led to numerous raids, detentions and 
arrests. In its 2014 report the USCIRF includes a list of 51 religious 
prisoners in Azerbaijan.
                         pressure against ngos
    The climate has also become much more difficult for NGOs. 
Amendments to the NGO law in February 2013 increased existing sanctions 
against unregistered NGO activity. It became illegal for unregistered 
groups to receive grants or donations. In conjunction with arbitrary 
refusal of registration, this places civic activists in an impossible 
position. The amendments also dramatically increase penalties for any 
NGO that does not register its grants. Another set of amendments that 
extends onerous requirements to international organizations was passed 
in February 2014. Grantees report months of effort with arbitrary 
bureaucracy to register their grants that are so far inconclusive. 
There is considerable apprehension that the regulations will be 
selectively enforced against organizations that are critical of the 
government.
    However even prior to these amendments, Azerbaijan was seen as 
violating freedom of association due to overregulation of NGOs. In a 
2011 opinion the Venice Commission found that the process for 
registering NGOs in Azerbaijan was too ``cumbersome, lengthy, and 
unpredictable.'' In five separate decisions the ECHR has found that 
Azerbaijan violates freedom of association by arbitrarily denying 
registration to NGOs. Azerbaijan should be bringing its legislation in 
compliance with ECHR and Venice Commission opinions rather than 
imposing even greater burdens on NGOs.
    The case of Anar Mammadli and Bashir Suleymanli of the Election 
Monitoring and Democracy Studies Center (EMDS) illustrates the way 
these laws are used to silence critics of the government. EMDS is the 
most authoritative domestic vote monitoring organization in Azerbaijan 
and it has been attempting to register for over 5 years and has been 
denied each time. The organization attempted to sue the government to 
obtain registration but the courts refused to consider its case. Last 
year the EMDS entered into a contract with a registered NGO to carry 
out its activities. This arrangement became grounds for a criminal case 
against Anar Mammadli, the Chairman of EMDS, who was sentenced to 5.5 
years in jail and Bashir Suleymanli, the Executive Director, who was 
sentenced to 3.5 years. Mammadli and Suleymanli were profiled in detail 
in a recent Amnesty International report that also considers them 
prisoners of conscience.
                               conclusion
    In closing, I am grateful to the Helsinki Commission for convening 
this hearing, which focuses attention on Azerbaijan at a very important 
moment. I hope that the Commission will remain equally engaged in the 
future by calling on the government of Azerbaijan to release political 
prisoners and repeal onerous new regulations against NGOs. Further, I 
would urge that the Parliamentary Assembly of OSCE which will convene 
in Baku this year to include voices from Azerbaijan's embattled civil 
society in its deliberations. I would also urge Members of Congress who 
travel to Azerbaijan as part of the OSCE delegation or other 
congressional delegations to visit political prisoners in jail and meet 
with their families and attorneys. In the case of Leyla and Arif Yunus, 
who are being held in limbo, their passports should be returned and 
they should be permitted to travel internationally.
    Mr. Chairman, Azerbaijan has a longstanding democratic tradition, 
and in 1918 became the first democracy in the Muslim world. The civil 
society of Azerbaijan works to fulfill that legacy and remind the 
government of its OSCE commitments. These brave and talented people 
should be permitted to do their important work without harassment and 
intimidation.
    Thank you.
                  Prepared Statement of Brenda Shaffer

    Dear members of the U.S. Helsinki Commission,
    The Republic of Azerbaijan is a strategically important country 
that borders Russia, Iran, and Turkey. Azerbaijan is important to a 
number of wider U.S. foreign policy issues, including policy toward 
Russia, relations with Iran, nuclear non-proliferation, Middle Eastern 
regional security, and European energy security. In its two decades of 
independence, the Republic of Azerbaijan has stood together with the 
U.S. as an ally on almost every major policy issue, including by 
sending troops to serve together with U.S. forces in Kosovo, Iraq, and 
Afghanistan. Azerbaijan has also served as the main transit point of 
U.S. troops and equipment into Afghanistan. Most recently, Azerbaijan 
was one of the few states bordering Russia that joined the U.S.-led 
effort at the United Nations to condemn Moscow's annexation of Crimea.
    Over a third of the population of Iran is ethnically Azerbaijani; 
thus, developments in Azerbaijan affect developments in its neighbor to 
the south, including Iran's domestic stability. Azerbaijan is a Muslim-
majority country that has not established any special status for Islam, 
observes complete separation of religion and state, and protects equal 
rights for citizens regardless of religious or ethnic origin. The 
Republic of Azerbaijan not only allows religious freedom, but observes 
freedom from religious coercion. During its short period of 
independence prior to being conquered by the USSR, Azerbaijan in 1918 
was the first Muslim-majority state to grant women suffrage, two years 
before the United States and long before most of Europe.
    Despite close cooperation between Azerbaijan and the United States 
on almost every strategic issue, relations between Washington and Baku 
are very complicated and occasionally tenuous. In this testimony, I 
will discuss Azerbaijan's strategic foreign policy approach, its 
relations with a number of its neighbors (Russia, Iran, and Armenia), 
trends in the South Caucasus region, and suggestions for how the U.S. 
can best support its national interests in the South Caucasus region.
                      azerbaijan's foreign policy
    Developments in Azerbaijan and the South Caucasus are strongly 
influenced by regional and global powers: the region is located at the 
crossroads of two continents and borders three important geopolitical 
actors: Turkey, Iran, and Russia. Due to its strategic location, the 
region is a focus of geopolitical competition.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    Azerbaijan possesses a strong strategic orientation toward the 
United States and Europe, but is also mindful of the constraints of its 
neighborhood. Consequently, Baku attempts to maintain a potentially 
treacherous balancing act in its policies one that allows close 
cooperation with the U.S. without encouraging the wrath of its 
potentially dangerous neighbors, Iran and Russia. As a Muslim-majority 
country, Azerbaijan maintains close cultural ties with many Muslim-
majority states, but religious and cultural factors play no role in 
determining the state's alliances or main strategies of cooperation. In 
fact, one of Azerbaijan's closest alliances is with Israel. Azerbaijan 
is Israel's largest supplier of oil, and the two states share strategic 
cooperation on a number of issues.
    Azerbaijan is rich in oil and natural gas reserves, and its 
exporting of these petroleum resources westward has been a major 
feature of its foreign policy since independence. Azerbaijan is among 
the top twenty oil producers in the world, producing close to a million 
barrels a day (850,000 barrels of which are exported). Azerbaijan also 
exports natural gas to most of its neighbors and will soon play an 
important role in enhancing Europe's energy security. At the end of 
2013, Azerbaijan and a number of international investors announced 
their final investment decision on the Southern Gas Corridor, which is 
designed to bring Azerbaijan's natural gas volumes into Europe. This 
ambitious project will provide the first new volumes of natural gas 
into Europe in decades and allow a number of states along the route to 
improve the security of their energy supply and lower their dependence 
on Russia. This $45 billion project that crosses seven countries and 
six regulatory jurisdictions is being built in such a way that it can 
easily be expanded, and can thus transit additional volumes of gas from 
new sources in the future. At the same time, adjoining pipelines can be 
built to reach additional markets that need to improve their security 
of supply, such as the Balkans. The Southern Corridor will be the 
catalyst for natural gas interconnectors in Southern Europe. For a 
number of years, the European Union has spoken about the importance of 
interconnectors, and this project has encouraged the development of 
these connecting pipelines between different European countries.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Azerbaijan could have sold its natural gas at a higher profit to 
neighboring Iran and Russia, but embarked on this ambitious project in 
order to link itself with Europe and lower its dependence on these 
neighboring states. This strategic choice entails closer cooperation 
with Europe, Turkey and the U.S., but also elicits potentially negative 
responses from Russia and Iran.
    Since Azerbaijan's independence with the breakup of the Soviet 
Union, the resolution of the Nagorno-Karabakh conflict has been the 
major focus of its national security and foreign policies. This 
conflict between Armenia and Azerbaijan started on the eve of the 
Soviet breakup, as ethnic Armenians in Azerbaijan's province of 
Nagorno-Karabakh rallied to join Armenia. Moscow played the newly 
independent Armenia and Azerbaijan against each other, turning a local 
dispute over the status of a territory inhabited by 90,000 people into 
a regional war from 1992 to 1994. Eventually, Armenia was victorious, 
and it took control of Nagorno-Karabakh and seven other Azerbaijani 
districts. As a result of the war, Armenia now occupies 20 percent of 
the territory of Azerbaijan (as legally recognized by the U.S. 
government), and close to one million Azerbaijani refugees and 
internally displaced persons were left homeless.
                     relations with russia and iran
    Azerbaijan borders--and has challenging relations with both Russia 
and Iran. Moscow seeks to limit Azerbaijan's cooperation with the 
United States and Europe, an approach it takes with most of the former 
Soviet states. Moscow has tried to block Azerbaijan's energy export 
projects westward, and has attempted to coerce Baku to route its energy 
resources to Russia.
    At the same time, Azerbaijan's neighbor to the south, Iran, also 
works to undermine Azerbaijan's stability. Iran is a multi-ethnic 
state, and its domestic security could be affected by developments in 
the neighboring Republic of Azerbaijan.1 Half of Iran's population is 
comprised of non-Persian ethnic minorities, with the Azerbaijanis the 
largest group at close to one-third of the country's population. The 
majority of residents in the northwestern provinces of Iran, contiguous 
to the border with the Republic of Azerbaijan, are Azerbaijanis. One 
reason that Iran supports Armenia in its conflict with Azerbaijan is 
that it prefers Azerbaijan to be embroiled in a conflict and 
consequently unable to serve as a source of support or emulation for 
the ethnic Azerbaijanis in Iran.
    As part of its policy of undermining Azerbaijan's security, Tehran 
has supported Armenia in its war against Azerbaijan and engaged in 
broad security, military, and economic cooperation with Yerevan since 
1992. During the war between Armenia and Azerbaijan, Iran supplied 
Armenia with fuel and food and allowed the flow of arms and goods 
through its territory to Armenia.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Tehran has also sponsored a number of terrorist cells and attempted 
terrorist attacks inside Azerbaijan, with targets that have included 
the U.S. embassy, the U.S. ambassador, the Israeli ambassador and local 
Jewish institutions in Baku. Due to its long and heavily crossed border 
with Azerbaijan, Tehran frequently attempts to use Azerbaijani 
territory to carry out attacks on Western, Israeli, and Jewish targets.
     the caucasus: conflict, domestic politics, and foreign powers
    In the South Caucasus region--as in most of the areas of the former 
Soviet Union that border Russia--domestic politics, foreign policy, and 
military conflicts are intertwined. Most of the powers involved in the 
South Caucasus, especially Russia and Iran, use threats to the 
stability of the region's governments and violent conflicts as tools to 
promote their influence and interests.
    To promote its dominance over bordering states, Russia has proved 
ready to use military force (as it has in Ukraine and Georgia); to work 
through electoral processes and civil society organizations (Russian 
citizens ran in recent elections to lead Azerbaijan, Georgia, and 
Latvia) to get its way; and to promote separatists as a lever of 
influence (as it has done in Moldova, Ukraine, Georgia, and 
Azerbaijan). If the United States is going to succeed in promoting 
conflict resolution and democratization in the region, as well as its 
own security interests, it must recognize this dynamic of regional 
politics.
    External support was a key factor in the emergence of the conflicts 
that appeared in the Caucasus during the post-Soviet period. In the 
former Soviet Union, there were hundreds of disjunctures where ethnic 
and political borders did not line up, but ethnic conflicts only broke 
out (with the exception of Chechnya), where Russia supported the 
secessionist forces. These conflicts cannot be resolved only through 
agreement between the secessionist forces and the country they have 
broken away from, but their strategic backer has to be on board. These 
conflicts are not ethnic conflicts, but proxy wars between Russia and 
in most cases forces that want stronger integration with the West. The 
conflicts in the Caucasus, including Nagorno-Karabakh, continue to 
provide outside powers with significant leverage in the region.
    In the last two decades, the United States has actively supported 
efforts to resolve the Nagorno-Karabakh conflict between Azerbaijan and 
Armenia, within the framework of the OSCE Minsk Group, which is 
composed of representatives of Russia, the United States, and France. 
These efforts have failed primarily because the United States has 
treated Armenia and Azerbaijan as the primary protagonists in the 
dispute while ignoring Russia's role in prolonging the conflict. For 
example, successive U.S. secretaries of state and special negotiators 
have criticized the presidents of Armenia and Azerbaijan for ``not 
preparing their people for peace,'' as the leaders of the Minsk Group 
chided last year, and for failing to reach an agreement. The U.S. has 
granted millions of dollars to aid to programs aimed at ``building ties 
between the two societies,'' but has never formed a strategy for 
dealing with Moscow because, until the Crimea invasion, Washington 
never acknowledged the extent to which Moscow uses ethnic conflicts 
around the region as a lever of influence.
    On May 7, the U.S. representative to the OSCE Minsk Group, 
Ambassador James Warlick, made an important statement articulating the 
long-standing U.S. policy on the Nagorno-Karabakh conflict.2 This 
statement and continued U.S. interest in resolving the conflict are 
important for the prosperity of the South Caucasus and for removing a 
lever of Russian and other foreign influence in the region. Moscow will 
undermine any peace agreement that it does not view in its interest, 
regardless of the stances of the leaders of Armenia and Azerbaijan. The 
current status quo of no war, no peace serves Russian interests. The 
U.S. should stop blaming the leaders of Armenia and Azerbaijan for the 
dispute and start thinking about how to mitigate Russian opposition to 
settlement by identifying Russian interests that could be served 
through resolution of the conflict. Successive U.S. administrations, 
whether Republican or Democrat, have been loath to bargain with Russia 
on strategic issues. They have preferred instead to operate on the 
level of principles (such as ``state sovereignty'' and ``the 
inapplicability of use of force.''). However, trade-offs are necessary 
in order to achieve security and allow prosperity in the post-Soviet 
region.
    In addition, to further support conflict resolution, the US should 
support Ankara's policy of linking the opening of the border between 
Armenia and Turkey to significant advancement in the Nagorno--Karabakh 
peace process. While increased trade between Armenia and Turkey will be 
a good development and in the long run could help reduce Yerevan's 
dependence on Moscow, this trade should be used as a force for peace. 
Peace cannot be accomplished without some significant Armenian 
withdrawal of the occupied territories. The only incentive that Yerevan 
has to compromise, with the exception of threat of war, is the desire 
to open the border with Turkey. Thus, the link of the border issue to 
some compromise on the Nagorno--Karabakh conflict can be used to 
facilitate trade and at the same time avert war.
    In the states that border Russia, there is an overlap between 
domestic politics and foreign intervention. While the U.S. and the 
Soviet Union battled it out during the 1970s through intra-state wars 
in the developing world, today elections and the funding of NGOs and 
political movements have replaced the proxy wars. During a presentation 
this year in Washington, D.C., a senior Georgian official pointed out 
that Russia has recently begun funding NGOs in Georgia to campaign for 
Georgian membership in Moscow's Eurasian Economic Union instead of the 
EU Partnership Program. Leaders of NGOs and opposition political 
movements in the South Caucasus have proudly stated that they take 
money from Iran, Russia, and foreign religious organizations--from 
whomever will help them get into power. These groups have accepted 
outside assistance even when the agendas of these foreign states and 
organizations contradict their own state's national sovereignty and the 
long-term democratic development of the South Caucasus states. The 
long-standing U.S. policy that rests on the premise that a ``vibrant 
civil society creates stability'' ignores the fact that in many parts 
of the world, elements of civil society are connected to foreign 
countries, which have no interest in democracy or stability.
    relations with the united states: challenges and moving forward
    While U.S. officials frequently acknowledge the important role that 
Azerbaijan plays in security issues that are of concern to the United 
States, understanding security needs should be a two-way street. 
Washington should also address Baku's security needs and its complex 
strategic environment, where both the Nagorno-Karabakh conflict and 
Azerbaijan's domestic political arena serve as theaters for Russia and 
other neighboring powers to promote their interests.
    Washington's actions also often contradict its own long-standing 
and clearly articulated policies on the region. For instance, the U.S. 
government officially recognizes Nagorno-Karabakh and the adjacent 
seven regions as under Armenian occupation. Yet, at the urging of 
leading Armenian-American political organizations, Congress imposed 
sanctions on Azerbaijan in 1992 that have not been removed in over 
twenty years. Congress also annually earmarks funds for the 
secessionist local government in Nagorno-Karabakh. These allocations 
are in violation of U.S. law, since they support settlement activity in 
occupied territories. Congressional allocations to Nagorno-Karabakh are 
equivalent to the idea of earmarking funds for Israeli settlements in 
the occupied West Bank or for the Russian-sponsored local government in 
Crimea, clearly actions that Congress would not consider taking. 
However, annually Congress approves the earmark to the occupied 
territory of Nagorno-Karabakh.
    In the past two decades, the U.S. has asked for Azerbaijan to join 
it in security initiatives that were important to Washington. Baku has 
always answered these U.S. requests, despite the fact that they often 
prompted serious responses and consequences from Russia and Iran. Now, 
as the Obama Administration hopes to improve relations with Tehran and 
disengage from Afghanistan and Iraq, it should uphold good relations 
with its allies in the region and not let these states be destabilized 
as payback for their cooperation with the U.S. For the United States to 
succeed in maintaining security and promoting its interests in the 
region with a smaller actual presence on the ground, it will need its 
allies more than ever. Washington should prioritize its good relations 
with states like Azerbaijan, so that Baku will be able to help its 
allies in the future.
                multi-ethnic iran's azerbaijani minority
    <bullet> Iran is a multi-ethnic state, and over 50 percent of its 
population is non-Persian. Azerbaijanis are the largest ethnic minority 
in Iran, comprising over a third of the country's population.
    <bullet> Iran's ethnic minorities are concentrated in its border 
provinces, and these groups share cross-border ties with co-ethnics in 
the neighboring states of Azerbaijan, Turkey, Iraq, Pakistan, and 
Turkmenistan.
    <bullet> Many prominent figures in Iran are ethnic Azerbaijanis, 
including Iran's spiritual leader, Sayyid Ali Khamenei, and the head of 
Iran's opposition Green Movement, Mir Hossein Mousavi.
    <bullet> Even though Azerbaijanis share the Shiite faith and a long 
history of common statehood with Iran's Persian majority, Tehran does 
not allow Azerbaijanis in Iran to operate schools or universities in 
their native language or use the Azerbaijani language in government 
institutions.
    <bullet> In addition to shared ethnic and cultural ties, many 
Azerbaijanis from both sides of the border share family ties and engage 
in trade with each other.
    <bullet> Among the approximately 25 million ethnic Azerbaijanis in 
Iran, there is a broad diversity of attitudes toward the Iranian state. 
Some Azerbaijanis comprise a core part of Iran's ruling elite, while 
others strive for language and cultural rights. But a segment of 
Azerbaijanis in Iran, especially young people openly identify as 
Azerbaijanis, oppose Persian-centered rule and struggle against the 
ruling regime.

                                  [all]



  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
